<html>
<title> - DOE'S REVISED SCHEDULE FOR YUCCA MOUNTAIN HEARING BEFORE THE SUBCOMMITTEE ON ENERGY AND AIR QUALITY OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION JULY 19, 2006 Serial No. 109-118 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 30-416 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                DOE'S REVISED SCHEDULE FOR YUCCA MOUNTAIN


                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 OF THE 

                        COMMITTEE ON ENERGY AND 
                                COMMERCE
                        HOUSE OF REPRESENTATIVES


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                              JULY 19, 2006

                            Serial No. 109-118

         Printed for the use of the Committee on Energy and Commerce


Available via the World Wide Web:  http://www.access.gpo.gov/congress/house

                    U.S. GOVERNMENT PRINTING OFFICE
30-416                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202)
512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE
                      JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas                       
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                    BUD ALBRIGHT, Staff Director
                   DAVID CAVICKE, General Counsel
      REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


                SUBCOMMITTEE ON ENERGY AND AIR QUALITY
                    RALPH M. HALL, Texas, Chairman
MICHAEL BILIRAKIS, Florida                 RICK BOUCHER, Virginia
ED WHITFIELD, Kentucky                       Ranking Member
CHARLIE NORWOOD, Georgia                   MIKE ROSS, Arkansas
BARBARA CUBIN, Wyoming                     HENRY A. WAXMAN, California
JOHN SHIMKUS, Illinois                     EDWARD J. MARKEY, Massachusetts
HEATHER WILSON, New Mexico                 ELIOT L. ENGEL, New York
JOHN B. SHADEGG, Arizona                   ALBERT R. WYNN, Maryland
CHARLES W. "CHIP" PICKERING,  Mississippi  GENE GREEN, Texas
VITO FOSSELLA, New York                    TED STRICKLAND, Ohio
GEORGE RADANOVICH, California              LOIS CAPPS, California
MARY BONO, California                      MIKE DOYLE, Pennsylvania
GREG WALDEN, Oregon                        TOM ALLEN, Maine
MIKE ROGERS, Michigan                      JIM DAVIS, Florida
C.L. "BUTCH" OTTER, Idaho                  HILDA L. SOLIS, California
JOHN SULLIVAN, Oklahoma                    CHARLES A. GONZALEZ, Texas
TIM MURPHY, Pennsylvania                   JOHN D. DINGELL, Michigan
MICHAEL C. BURGESS, Texas                    (EX OFFICIO)                            
JOE BARTON, Texas
  (EX OFFICIO)

                                CONTENTS


                                                                     Page
Testimony of:

        Sproat III, Hon. Edward F., Director, Office of Civilian 
                Radioactive Waste Management, U.S. Department of 
                Energy	                                              15
Additional material submitted for the record:
        Sproat III, Hon. Edward F., Director, Office of Civilian 
                Radioactive Waste Management, U.S. Department of 
                Energy, response for the record	                      45


                      DOE'S REVISED SCHEDULE FOR 
                             YUCCA MOUNTAIN


                       THURSDAY, JULY 19, 2006

                      HOUSE OF REPRESENTATIVES,
                  COMMITTEE ON ENERGY AND COMMERCE,
               SUBCOMMITTEE ON ENERGY AND AIR QUALITY,
                                                          Washington, DC.

        The subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 2322 of the Rayburn House Office Building, the Hon. Ralph 
M. Hall  [Chairman] presiding.
        Members present:  Representatives Hall, Norwood, Shimkus, 
Wilson, Radanovich, Bono, Otter, Murphy, Barton (ex officio); 
Boucher, Wynn, Allen, Gonzalez, and Dingell (ex officio).
        Staff Present:  David McCarthy, Chief Counsel for Energy and 
Environment; Elizabeth Stack, Policy Coordinator; Annie Caputo, 
Professional Staff Member; Peter Kielty, Legislative Clerk; Sue 
Sheridan, Minority Senior Counsel; and Alec Gerlach, Minority 
Research Assistant. 
        MR. HALL.  Okay.  I thank everyone.  We will come to order.  
I might announce first that we are expecting a vote any time, 
and I am not sure how many votes we will have, anywhere from 
one to three maybe.  But we will vote as quickly as we can and get 
back to where we were so we don't waste as much time or, for the 
attorneys in the crowd, that doesn't run your hours up too much.  I 
have been asked to do that by the folks that you work for.  We are 
going to get you in and out of here just as quick as we can.  
        The main ones are here, Mr. Rick Boucher, who is the leading 
gentleman from the great State of Virginia.  
        I will make an opening statement, and probably by the time I 
finish my opening statement the buzzer will go off, and we will 
start voting.  
        Mr. Sproat, we are very happy to have you, and the 
subcommittee will come to order, and I want to welcome you.  I 
had a chance to visit with you.  I know of you.  As Director of the 
DOE Office of Civilian Radioactive Waste Management, you have 
a big job in front of you.  
        I was just talking to one of the young men that worked for me 
back in 1983 when we started working on this legislation, trying to 
put it together.  I was so naive then that I thought we had to hurry 
up and get it together, get it printed up and get it voted on where 
we could get it behind us.  And here it is 2006, and we are still 
working on it.  
        But I have read your background and some of your opening 
statement, and you are about as straightforward as anybody I have 
come across yet.  You have a huge job, and we really wish you 
well.  
        Without objection, the subcommittee will proceed pursuant to 
committee rule 4(e) which allows members the opportunity to 
defer opening statements for extra questioning time; and the Chair 
will recognize himself for an opening statement.  
        First, I want to thank Ranking Member Rich Boucher--Rick 
Boucher.  I know your name, Rick.  And Chairman Barton is 
usually here and, if he is not here, he will be here; and when he is 
here, we will open up and let him ask his questions where he can 
be underway with his major duties as Chairman of the Energy and 
Commerce Committee.  
        But I want to thank you, Mr. Boucher, Chairman Barton, and 
Ranking Member Dingell of the full committee for their help in 
setting up this hearing.  
        Yucca Mountain is a necessary solution for how to dispose of 
our Nation's nuclear waste.  We have known that a long time.  As I 
have said before, we can't allow this program to falter any more.  
We owe it to our children and to our grandchildren to live up to the 
commitment to build a safe and secure repository.  It is my sincere 
hope that this new schedule is the last time that Yucca Mountain 
gets delayed.  
        I am a strong supporter of nuclear energy, and I am anxious to 
see new plants get built for that to happen.  The public needs 
confidence that DOE will build the repository and meet their 
obligation to dispose of spent fuel.  Otherwise, the lack of process 
at Yucca Mountain will jeopardize new plant construction; and we 
need that.  
        Today's hearing is an opportunity for us to examine the revised 
schedule for Yucca Mountain.  I have noticed that there is no 
funding profile accompanying this schedule.  It is difficult to 
assess this new schedule without knowing what resources are 
necessary to accomplish it.  So, Mr. Sproat, I would like for you to 
provide that funding profile to the committee as soon as you 
possibly can.  
        I encourage my colleagues to use this hearing to gain a better 
understanding of the issues before us in preparation of possible 
legislative action, and I remind all members of the opportunity to 
ask questions for the record.  They will be answered and sent to 
you.  And, Mr. Sproat, I ask you to respond as quickly as possible 
to the questions; and I look forward to working with you and 
listening to your testimony today.  
        I recognize Mr. Boucher.  
        [Prepared Statement of the Hon. Ralph Hall follows:]


PREPARED STATEMENT OF THE HON. RALPH HALL, CHAIRMAN, 
SUBCOMMITTEE ON ENERGY AND AIR QUALITY

        The Subcommittee will come to order.  I would like to 
welcome Mr. Ward Sproat, Director of DOE's Office of Civilian 
Radioactive Waste Management, to this Committee.  Without 
objection, the Subcommittee will proceed pursuant to Committee 
Rule 4(e), which allows Members the opportunity to defer opening 
statements for extra questioning time.  
        The Chair recognizes himself for an opening statement.  First, I 
want to thank Ranking Member Rick Boucher, and Chairman 
Barton and Ranking Member Dingell of the Full Committee for 
their help is setting up this hearing.  
        Yucca Mountain is a necessary solution for how to dispose of 
our nation's nuclear waste.  As I've said before, we can't allow this 
program to falter.  We owe it to our children and grandchildren to 
live up to the commitment to build a safe and secure repository.  It 
is my sincere hope that this new schedule is the last time that 
Yucca Mountain gets delayed. 
        I am a strong supporter of nuclear energy and I'm anxious to 
see new plants get built.  For that to happen, the public needs 
confidence that DOE will build the repository and meet their 
obligation to dispose of the spent fuel.  Otherwise, the lack of 
progress at Yucca Mountain could jeopardize new plant 
construction.
        Today's hearing is an opportunity for us to examine the revised 
schedule for Yucca Mountain.  I've noticed that there is no funding 
profile accompanying this schedule.  It's difficult to assess this 
new schedule without knowing what resources are necessary to 
accomplish it.  I'd like you to provide that funding profile to the 
Committee as soon as possible.
        I encourage my colleagues to use this hearing to gain a better 
understanding of the issue before us in preparation for possible 
legislative action.  I remind all Members of the opportunity to ask 
questions for the record following the hearing.  I have asked the 
committee staff to help pull together those questions that come in 
quickly.  Mr. Sproat, I ask you to please respond to questions as 
soon as you can.  I look forward to working with you, and listening 
to your testimony today.

        MR. BOUCHER.  Well, thank you very much, Chairman Hall.  I 
appreciate your work with our side of the aisle as together we 
made preparations for this hearing, and I appreciate your 
scheduling the hearing today.  
        The subject of the Yucca Mountain nuclear waste repository is 
a matter of great concern to many stakeholders, including the 
electricity consumers who are each year financing the Nuclear 
Waste Fund.  As a follow-up to our March hearing, it is 
appropriate that we learn today about the Department of Energy's 
recent review of the program and the revised schedule for 
development of the repository.  
        I would note, Mr. Chairman, and I think you would agree, that 
there is a bipartisan commitment on this committee to move the 
Yucca Mountain project forward as rapidly as is possible.  
        In March, we were told that the Department was undertaking a 
review of the design of the repository and was unable to provide 
any updated estimates of when the license application would be 
filed or when the depository might open and start receiving waste.  
        Since that time, the Department has concluded its review and 
prepared a revised schedule for the submission of a license 
application to the Nuclear Regulatory Commission and subsequent 
construction and opening of the facility.  The announcement of a 
revised schedule is highly significant, and we welcome a 
presentation of it today.  
        In 2002, Yucca Mountain was certified as the site for the 
Nation's repository of spent nuclear fuel.  But the project has 
experienced numerous delays.  The Nuclear Waste Act set the 
original goal of 1998 for opening the repository, and by missing 
that date the Department of Energy was found to be in breach of its 
original obligations.  
        More recently, the Department had hoped to file a license of 
application with the NRC by 2004 and begin accepting waste in 
2010.  The target for the application was missed, and the 
Department now sees 2017 as the earliest date for opening of the 
facility.  
        In addition, the long standing matter of funding for the Yucca 
Mountain project continues to be of concern, while the balance in 
the Nuclear Waste Fund is currently approximately $19 billion and 
annual appropriations for the Yucca Mountain project represent 
only a fraction of the amount that is annually contributed by the 
ratepayers.  This year, for example, the Administration has 
proposed $156 million for civilian nuclear waste disposal, but $750 
million in ratepayer contributions will enter the Nuclear Waste 
Fund this year.  These moneys are not walled off in the budget and 
protected and are therefore being spent for other purposes.  
        Over the past several years, a number of legislative proposals 
to address the funding mechanism and provide protection for the 
monies entering the Nuclear Waste Fund have been proposed and 
debated and approved in this committee.  However, given the 
objections of other committees, no resolution has been reached on 
this matter.  
        An issue of long standing concern is the funding mechanism, 
and I look forward to hearing from Mr. Sproat today regarding the 
funding system which will be required in order to meet the revised 
schedule and any comments that he may have regarding the 
adequacies or inadequacies of the existing funding system.  
Funding is a central focus of this committee's work with regard to 
Yucca Mountain.  I know it is central concern of yourself, also, 
Mr. Sproat.  
        With those comments, let me say that I very much look 
forward to your testimony; and, Chairman Hall, thank you again 
for convening today's hearing.  
        MR. HALL.  Thank you.  
        Recognize the gentleman from Illinois, Vice Chair of this 
committee, Mr. Shimkus.  
        MR. SHIMKUS.  I will yield for my 8 minutes.  But there is a 
formal statement I have to make based upon the Director's 
presence and his daughter in the room.  I just have to formally say, 
"Beat Navy," and I yield back.  
        MR. HALL.  With those instructions, we have read the 
background of our witness and you are the only witness that has 
been asked to come here today.  
        I didn't see my friend from Texas, Mr. Gonzalez.
        MR. GONZALEZ.  I will waive opening.  Thank you. 
        MR. HALL.  Thank you for doing that.  
        Now as I was saying before I was interrupted, we recognize 
you for your opening statement.  
        Mr. Dingell just showed up.  The Ranking Member is worth 
waiting for.  I recognize you for an opening statement.
        MR. DINGELL.  Mr. Chairman, thank you for your courtesy; and 
thank you for holding this hearing.  I believe it is timely, and it 
provides the committee an opportunity to hear and the Department 
of Energy a chance to honor the commitment it made to the 
subcommittee in March.  I am encouraged and I find it an 
encouraging sign for DOE to meet the deadline it predicted for 
setting forth its revised Yucca Mountain program.  I hope this 
trend will continue.  
        As the Department acknowledged in March testimony, there 
has been speculation about whether or not we still need Yucca 
Mountain--I agree with DOE; the answer is yes--and the trust that 
it can demonstrate today that this long-delayed program can be put 
on a sound footing.  For several reasons, the program now stands at 
a critical juncture.  I would observe that that is not new and it has 
been going on for more than a little while.  
        First, as has often been noted, if we were to retain the nuclear 
option in this country, DOE must demonstrate that it can fulfill its 
statutory obligation to file a solid license application to the Nuclear 
Regulatory Commission, the NRC, within a credible timeframe.  
        Second, the Federal government has a moral duty to use the 
millions of dollars that ratepayers have contributed to the Nuclear 
Waste Fund as Congress intended.  Thus, the funds should not be 
diverted to more speculative alternatives.  
        As you know, the U.S. Treasury is and likely will continue 
paying out billions of dollars--and I repeat--billions of dollars for 
breaching its contracts with the utilities, an indefensible situation.  
A change in the use of the Fund during the appropriations process 
could undermine the remaining confidence that States, 
regulatories, and industry may have that Yucca Mountain will ever 
open; and we will send a disturbing signal to communities around 
the nuclear plants who bear the burden of on-site storage.  
        Finally, I am mindful that the Department set up legislation in 
April which our Chairman has introduced by request.  At the 
subcommittee's last Yucca Mountain hearing, I indicated that 
absence of clear understanding of the Department's recent 
revamping of the program as scheduled for filing an application 
with NRC and the revised cost applications.  It would be 
impossible for Congress to assess whether or not new legislation is 
needed.  
        My impression is that there is plenty of room for DOE to do 
things while the Congress weighs these developments, starting 
with the information in today's testimony.  
        I am a strong supporter of the Nuclear Waste Policy Act, but I 
am open to considering the need for changes.  The Department's 
legislative proposal, however, does not appear to directly affect the 
NRC application process; and the Department would be ill-advised 
to carry--rather, to tarry in completing this task.  As we have seen, 
destined failure to file an application tends to create a vacuum into 
which all manner of strange ideas might take root and blossom.  
        In summary, the ratepayers have paid into the fund for so many 
years, utilities have counted on Yucca Mountain, and the potential 
investors in the nuclear industry need a clear signal that DOE can 
put this program right.  I look forward to the testimony of our 
witnesses, and I thank my colleagues for their attention, and I 
thank you, Mr. Chairman, for this hearing.  Thank you. 
        MR. HALL.  Mr. Chairman, we thank you.  
        Recognize the gentlelady from New Mexico, Ms. Wilson, for 
opening statement.
        MS. WILSON.  I will pass. 
        MR. HALL.  The Chair recognizes Tom Allen, the gentleman 
from Maine, for opening statement.  
        MR. ALLEN.  Thank you, Mr. Chairman, for holding this 
hearing and for the bipartisan way in which you and Chairman 
Barton have dealt with the Yucca Mountain issue.  
        Mr. Sproat, I am glad you are here today and that you have met 
your Department's commitment to give us revised timetables for 
submitting a license application for Yucca Mountain as well as a 
revised timetable for construction and opening of the repository.  
        I applaud your commitment to the Yucca Mountain Program 
and to a reform of the Office of Civilian Radioactive Waste 
Management.  There is clearly much work to do.  Even with your 
timetable, the Yucca Mountain license application will be 6 years 
late and the opening of the repository will be at best 19 years 
beyond the deadlines set by the Nuclear Waste Policy Act.  
        I am troubled by several parts of your prepared testimony.  
        First, I question the value of making further assessments of the 
draft license application.  If these assessments make the application 
significantly stronger, then there is value to them.  But they must 
not delay the time table for filing the license application itself.  The 
overriding goal has to be to file the application on time.  
        Second, I am concerned about the Department's failure to meet 
its contractual obligations to take possession of the spent nuclear 
fuel at nuclear power plants.  
        In Maine, we have no active nuclear power plants, but we do 
have spent nuclear fuel.  Maine ratepayers have paid and continue 
to pay millions of dollars into the Nuclear Waste Trust Fund, 
ostensibly to provide funding for Yucca Mountain.  These 
payments continue, even though Maine consumers no longer use 
nuclear power to generate their electricity.  
        As taxpayers, Mainers are paying into the Department of 
Justice's judgment fund which will be used to cover the enormous 
damages the utilities will inevitably be entitled to because of the 
Department's breach of contract.  In effect, Maine taxpayers will 
be reimbursing Maine ratepayers and utilities with hundreds of 
millions of dollars in a financial shell game that will do nothing to 
achieve the ultimate goal: the transfer of Maine's nuclear waste to 
Yucca Mountain.  
        In your prepared testimony you acknowledge the need for a 
portfolio of legal and financial solutions to address these problems 
and indicate that you intend to work with Congress on these issues.  
I would like more specifics as we go forward.  
        Finally, I am a little surprised that your timetable does not 
include revised budget estimates.  We need that information to 
make informed policy judgments, and I hope that that information 
will soon be forthcoming.  
        And the bottom line, Mr. Sproat, is that I am pleased to have 
you here and look forward to your testimony. 
        MR. HALL.  Thank you.  
        The Chair recognizes the Chairman of Energy and Commerce, 
Mr. Barton.  
        CHAIRMAN BARTON.  Thank you, Mr. Chairman, Ranking 
Member Boucher, for having this hearing.  
        I feel very strongly about this issue, and I remain committed to 
caring out our Nation's nuclear energy policy and building a 
repository at Yucca Mountain.  It is a critical step of that policy.  
        Today, we have before us the long-awaited, much-anticipated 
new schedule for Yucca Mountain.  In 1982, Congress directed 
DOE to begin operating the repository by January 31st, 1998.  So 
even as we are holding this hearing, we are already over 8 years 
late.  
        The revised schedule projects filing the license application in 
June of 2008, the commencement of operation in 2017, 11 years 
from today.  If that happens, it is only going to be 19 years late.  
        There are those that hope and believe that late means never.  
Frustration over these continued delays prompts questions on 
whether Congress should just give up on Yucca Mountain and look 
for other options.  
        I am frustrated by lack of progress at Yucca, but I am not 
giving up, because I am not aware of any credible alternative to 
permanent disposal in a deep geologic repository.  Interim storage 
and reprocessing are attracting discussion today, but they don't 
eliminate the need for repository for final disposal.  I am not 
convinced that interim storage or reprocessing could be 
implemented any sooner than a faithful effort to finish Yucca 
Mountain.  
        Future generations may develop technology that provides more 
sophisticated solutions to the problem, and I hope that they do, but 
it is our job today to complete the one facility that remains 
necessary in any fuel cycle currently imagined.  We in Congress 
have an obligation to finish what we started in 1982.  
        I think it is ironic that today, 2006, I am Chairman of the 
Energy and Commerce Committee.  In 1982, I was a White House 
Fellow with the Department of Energy; and I was on one of the 
briefing teams that then briefed then Secretary of Energy James B. 
Edwards on the first proposal about Yucca Mountain back in 1982.  
        We owe it to everybody in this country who is getting 
electricity generated by nuclear power and who has already paid 
for the disposal because of their past contributions and who are 
paying for it today at the rate of over a billion dollars a year to 
build and maintain Yucca Mountain on the most feasible timeline 
possible.  
        Again, that deadline was supposed to have been 8 years ago in 
1998.  There are a lot of reasons and excuses to explain why 
progress on the repository has been so slow, but there is no better 
time than the present to be exploring what actions are necessary to 
begin operations as soon as possible.  
        Mr. Sproat, I met you in my office not too many days ago.  I 
respect your resolve, I respect your energy, I respect your 
enthusiasm, your commitment to achieving progress on the 
repository license.  As I told you then and I am telling you now, 
you have got your work cut out for you.  But I really hope that you 
can succeed; and, if at all possible, I am going to do everything I 
can as Chairman of this committee to help you succeed while so 
many other efforts have failed in the past.  I look forward to 
hearing your testimony today. 
        [Prepared Statement of the Hon. Joe Barton follows:]

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, 
COMMITTEE ON ENERGY AND COMMERCE

        Thank you, Chairman Hall and Ranking Member Boucher for 
having this hearing.  As you know, I feel very strongly about this 
issue and remain committed to carrying out our nation's nuclear 
energy policy and building a repository at Yucca Mountain is a 
critical step. 
        Today we have before us the long-awaited, much-anticipated 
new schedule for Yucca Mountain.  In 1982, Congress directed 
DOE to begin operating the repository by January 31, 1998, so 
we're nearly eight years late today.  
        The revised schedule projects filing the license application in 
June of 2008 and commencement of operations in 2017.   It will be 
19 years late, and there are some who hope and believe that late 
means never.  The frustration over these continuing delays prompts 
questions on whether Congress should give up on Yucca Mountain 
and look for other options.
        I am frustrated by the lack of progress at Yucca Mountain, but 
I'm not giving up.   I am not aware of any credible alternative to 
permanent disposal in a deep geologic repository.  Interim storage 
and reprocessing are attracting discussion, but they don't eliminate 
the need for a repository for final disposal.  And I am not 
convinced that interim storage or reprocessing could be 
implemented sooner that a faithful effort to finish Yucca Mountain.  
Future generations may develop technologies that provide more 
sophisticated solutions to this problem, and I hope they do.  But 
it's our job to complete the one facility that remains necessary in 
any fuel cycle currently imagined.
        We in Congress have an obligation to finish what we started in 
1982.  We owe it to the many states that are now storing the 
nuclear waste and spent fuel destined for disposal at Yucca 
Mountain.  We owe it to all those electricity ratepayers who have 
paid for disposal.  And we owe it to all the taxpayers who are 
paying approximately a billion dollars a year because of DOE's 
failure to meet the 1998 deadline.  
        There is a mountain of reasons and excuses to explain why 
progress on the repository has slow.  But there is no better time 
than the present to begin exploring what actions may be necessary 
to begin operations as soon as possible.
        Mr. Sproat, I respect your resolve and commitment to 
achieving progress on the repository license.  You have your work 
cut out for you, but I really hope you can succeed where so many 
others have not.  I look forward to hearing your testimony.

        MR. HALL.  The Chair recognizes the gentlelady from 
California, Ms. Bono, for opening statement if she likes.  
        MS. BONO.  Thank you for holding this hearing, and I will 
waive.  
        MR. HALL.  Mr. Murphy, do you have an opening statement?  
        MR. MURPHY.  I will waive. 
        [Additional statements submitted for the record follows:]



PREPARED STATEMENT OF THE HON. CHARLIE NORWOOD, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF GEORGIA

        Mr. Chairman, 
	Thank you for holding this hearing on Yucca Mountain, which 
is not only important to our nuclear industry, but also to our overall 
energy security, diversity and reliability.  
	The nuclear energy industry is doing its job.  It provides clean, 
cheap, reliable power for about 20% of our electricity needs.  One 
uranium pellet smaller than my thumb equals about 17,000 cubic 
feet of natural gas, nearly one ton of coal, or 149 gallons of gas.  
And it does this without any harmful emissions.  The industry's 
safety record is impeccable for both plants and also waste 
transportation and storage.
        In a time of rising energy costs, 
expanding nuclear power should be a no brainer.  The Energy 
Policy Act included good policy to help expand nuclear power, and 
industry is prepared to do so.  But as is the case with most good 
ideas, one simple thing stands in the way.  
        In order to move forward, in order to meet the growing need 
for power, the federal government is going to need to live up to its 
commitment on waste disposal.  Yucca Mountain--after decades of 
study, after billions of dollars, after years of court battles--needs to 
be operational.  Most people here today refer to that concept as 
"waste confidence."  But we have been around this block a number 
of times with no resolution.  
        Frankly, instead of waste confidence what we still lack is 
Administration confidence.  I have been on this panel as long as I 
have been in Congress and this debate seems to continue endlessly.  
But we can't afford to give up, because this piece of the puzzle is 
critical to our nation.  Yucca Mountain must open because our 
power needs aren't going to go away.  China and India aren't 
going to stop aggressively pursuing fossil fuels like oil and gas, 
keeping their costs high.  And leaving the current waste in place all 
around the nation in temporary sites isn't safe in the long term.  
        Just as Congress shouldn't ignore its promises to veterans, or 
its promises to retirees, it cannot ignore its promise in this area 
now.  We need a schedule and need to stick to it.   
        I believe Mr. Sproat can do this job, and I continue to have 
faith that this Administration wants to do this work.  I look forward 
to hearing about how the Department is going to take action, not 
another timeframe for another study to see what the timeframe 
ought to be to start work.
        Thank you and I yield back my time.

PREPARED STATEMENT OF THE HON. EDWARD J.  MARKEY, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
MASSACHUSETTS

        Mr. Chairman, thank you for calling this afternoon's hearing.
        Today we will hear the latest estimates from the Department of 
Energy regarding its schedule for moving forward to seek a license 
from the Nuclear Regulatory Commission to store all of the 
nation's high-level radioactive nuclear waste in Yucca Mountain.
        The nuclear waste program has been one of the longest running 
jokes in Washington for the last thirty years.  The Department of 
Energy and its predecessor agencies started out studying more than 
30 potential sites back in the 1970s.  After passage of the 1982 
Nuclear Waste Policy Act, the search was narrowed to a dozen 
potential sites for two permanent waste repositories--9 potential 
sites for the first repository and 12 sites in 7 states for the second.  
One repository was to be West of the Mississippi and the other 
East of the Mississippi.  In 1986, DOE (for political reasons) 
dropped the search for the second repository, nominated 5 sites as 
suitable for the first repository, and (again for political reasons) 
focused on 3 potential sites in the West for actual site 
characterization.  In 1987, Congress (again for political reasons) 
put the second repository on permanent hold and further limited 
the search for the first repository down to a single site:  Yucca 
Mountain, Nevada.  
        That decision was not based on science.  It was based on 
politics, on the fact that the Congressional delegations from the 
other states previously under consideration were able to use their 
political muscle pass the Nuclear Queen of Spades on over to the 
State of Nevada.   The Department of Energy was then left with a 
fool's errand:  come up with a post-hoc technical and scientific 
rationalization for a policy that was based entirely on politics.  It is 
an unenviable task.
        While the testimony we will hear today expresses optimism 
that a license application can be submitted to the NRC by 
September 2008 and that the repository itself can begin receiving 
waste by March 2017, there is good reason to doubt that the 
Department will be able to meet these objectives.  Consider some 
of the problems that have come to light about this program over the 
course of the last two years:
	<bullet> In 2004, the Court threw out EPA's first Radiation 
Protection Standards because they were not strong enough 
to protect the public from radiation exposure, and they 
failed to follow recommendations of the National Academy 
of Sciences.
	<bullet> In 2005, EPA responded to this Court decision by issuing 
draft new standards for the Yucca Mountain site which are 
wholly inadequate, do not meet the law's requirements, and 
do not protect the public healthy and safety.  In fact, unless 
EPA substantially revises its proposal, the Yucca Mountain 
site will have the least protective public health radiation 
standard in the whole world.
	<bullet> Also in 2005, numerous scientific and quality assurance 
problems, transportation problems, corrosion of casks, 
effectiveness of materials, and many other issues caused 
DOE to suspend work on the surface facilities and the 
Nuclear Regulatory Commission to issue a stop order on 
the containers.
	<bullet> In 2006, the NRC issued a report that found Bechtel, the 
main contractor at Yucca Mountain, had failed to 
accurately measure and estimate the amount of corrosion 
likely in the casks DOE wants to use to store the nuclear 
waste.  Because of this problem, the Department issued a 
stop work order on cask research.

        Even some of the biggest boosters of the nuclear industry in the 
Congress now appear to doubt that Yucca Mountain will ever be 
licensed.  Over the last few months, pro-nuclear majorities on the 
Appropriations Committees in both the House and Senate have 
shifted funding into nuclear reprocessing and above-ground 
interim storage of nuclear waste - actions which appear to be 
driven by a conviction that Yucca Mountain is dead.  In fact, the 
Appropriators over in the Senate have proposed to essentially 
rewrite the Nuclear Waste Policy Act to set up regional above 
ground "interim" waste dumps all around the country.  I look 
forward to hearing the Department's views on this proposal, and its 
impact of both the funding for and the administration of the high-
level nuclear waste program.   
        I would suggest that if Yucca Mountain is dying or dead, it is 
because ultimately the scientific and technical realities at the site 
can no longer be ignored, and because ultimately politics cannot 
trump science when it comes to finding a solution to the problem 
of safely storing all of the nation's most deadly nuclear wastes.

        MR. HALL.  All right.  We will pick up again.  
        To start off, thank you for everything.  We recognize you 
prepared written testimony.  We ask you to summarize as much as 
you can.  You were kind enough and thoughtful enough to give us 
your opening statement.  

STATEMENT OF THE HONORABLE EDWARD F. SPROAT III, DIRECTOR, OFFICE OF CIVILIAN 
RADIOACTIVE WASTE MANAGEMENT, U.S. DEPARTMENT OF ENERGY  

        MR. SPROAT.  Thank you very much for the hearing here today.  
        I heard the frustration and the statements from all of the 
members.  Believe me, not only do I fully understand it and 
appreciate it, but I share it.  One of the reasons that I took this 
position and accepted the President's offer to be nominated and 
take this position is because I share not only that frustration but a 
firm conviction that nuclear energy needs to be a strategic option 
in our energy portfolio going forward.  This project and the issue 
of disposal of high level nuclear waste and spent fuel has to move 
forward now in order to make that a reality, and that is why I took 
this job.  
        I hope in my discussions with you today that that commitment 
on my part will come through to you in talking a little bit about 
what I plan to do and how I plan to bring my experience and my 
expertise that I have gained in the private sector in the nuclear 
industry over the years into this project to move it forward smartly 
in the time that I am in this job, and that is my commitment to you. 
        Let me say that it has been about 5 years since I have been in 
front of this subcommittee.  When I was here last, I was Vice 
President of a generation of international projects at Exelon 
Generation.  I came here and I talked about the PBMR.  I spent a 
year in South Africa as Chief Operating Officer of the Pebble Bed 
Modular Reactor project in South Africa, and I am happy to say 
that South Africans are moving forward.  
        After that, I started to do some work on the NGNP Next 
Generation Nuclear Plant project.  But when I stepped back and 
took a look at what needs to happen now, my feeling was I could 
best serve the country by getting involved with this project and try 
to get the Yucca Mountain project unstuck; and that is why I am 
here. 
        As you know, Deputy Secretary Sell was here on March 15th 
and committed to you that we would come here this summer and 
make a commitment to a schedule for Yucca, and that is why I am 
here today.  
        I know you have had a chance to read it so I am not going to go 
through all of the testimony, but I would like to talk about where I 
am going to take or try to take this program and my organization 
with my four strategic objectives.  
Number one is get a docketable license application into the 
NRC no later than Monday, June 30th, 2008.  I know the date, and I 
am not planning on working that weekend.  We are going to have a 
very tight, very driven schedule to drive that.  
        Mr. Allen, I understand your concern about the assessment and 
whether or not that would impact that date.  I am telling you today 
that assessment will not impact that date.  That assessment is being 
done so I can fully understand what the gaps are between what I 
need to have to submit a docketable, credible license application 
versus what I have sitting on the shelf right now--which I don't 
know what I have sitting on the shelf right now, having only been 
there for 4 weeks, but that is what that assessment is about.  We 
have enough time in 23 and a half months to close those gaps and 
put in a good license application, and that is why we are doing it.  
        But let me talk about more than just the date.  Just getting a 
license application in on that date is not a measure of success.  It 
has got to be a license application that the NRC will accept and 
docket, and it has got to be an application that will ultimately lead 
to receiving a license to build and operate Yucca Mountain.  I have 
five criteria I mentioned in my testimony that that application 
needs to meet before I am willing to sign it off and send it to the 
NRC, and my entire office knows what these five criteria are. 
        We have to have a design that meets the regulatory 
requirements, we have to have an application that is written that 
clearly reflects that design, the data upon which the design is based 
needs to be based on quality assured data; the application needs to 
address all of the issues that the NRC is looking for, and the people 
who are writing this need to stand up and be held accountable and 
willing to sign off and say their part of the application is correct 
and they are willing to stand behind it.  So that is really important.  
        The one other thing I would say about the application is that I 
know there are going to be people who are going to say now we 
have seen their schedule, we think it is overly aggressive, and it 
shows that they are not committed to safety and quality.  And what 
I will tell you is, based on my experience in the private sector and 
in the organizations I have been in, the issue of safety, quality, and 
schedule discipline are not mutually exclusive.  I unequivocally 
believe that, and my office is going to believe that if they don't so 
far, and that safety and quality are not going to be things that we 
are going to pass up, but we are not going to bypass schedule 
discipline either on getting this application in. 
        The schedule I have attached to the testimony talked about 
best-achievable date.  I wanted to be very clear on what that 
means.  It is predicated on that the legislative package that the 
Administration sent up to the Hill back in the spring gets passed by 
the Congress; and I would respectfully request that the Congress 
look at that legislation, debate it, engage us in dialogue and take it 
up this year.  Because issues that are fundamentally required to 
allow me and the project to meet this schedule are tied up with the 
corrective actions, if you will, that we have requested in that 
legislation, particularly access to the waste fund revenues and 
receipts, land withdrawal in Nevada, and certain other key issues 
that are listed in there; and I can talk about that later.  So I would 
like to reiterate the importance of that legislation in allowing me to 
meet those dates that are in that schedule. 
        Of the three other strategic objectives, the second one has to do 
with the organization itself, the organization now that I am heading 
up.  In order to be seen as a credible NRC licensee, there are 
certain skills, competencies, behaviors, and culture that that 
organization needs to have; and I am just in the early stages in my 
assessment of where that currently stands.  I can tell you that it is 
not where it needs to be.  But I can also tell you that I can get it a 
long way in getting to where it needs to be in the time I am going 
to be in this position, and I certainly intend to do that.  
        The third strategic objective is around the issue that several of 
you brought up already about how do we get the issue of the 
mounting government liability off of top dead center around the 
delays associated with Yucca Mountain and the failure of the 
Department to perform per the standard contract.  
        As some of you may know, I was the person who was the lead 
negotiator for PECO Energy in negotiating the settlement for the 
DOE for the Peach Bottom spent fuel contract.  We were the first 
settlement with the Government on the failure to perform on the 
spent fuel contract.  
        So I understand the agreement, I understand the contract, and I 
understand what we can do, and that is one of the tools in the 
portfolio of solutions I was talking about as a way of moving 
forward to minimize government liability.  
        The fourth and final strategic objective is around 
transportation.  We can get this thing moving.  We can get it 
licensed.  We can get it built.  But if we can't get the fuel there, we 
haven't accomplished anything.  The whole issue of transportation 
has been underfunded and not enough attention paid to it; and my 
commitment to you is it is going to get a lot more attention real 
fast, with a very heavy emphasis on local involvement in the 
planning of the transportation routes and understanding the energy 
procedures and processes that need to go into transporting 
high-level waste and spent nuclear fuel to the repository.  
        So, in summation, I am very happy to be here, I understand the 
challenge that sits in front of me, and I am excited about going to 
make it happen.  
        Mr. Chairman, that concludes my remarks. 
        MR. HALL.  Thank you. 
        [The prepared statement of Hon. Edward F. Sproat III follows:] 

PREPARED STATEMENT OF THE HON. EDWARD F. SPROAT III, 
DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
MANAGEMENT, U.S. DEPARTMENT OF ENERGY

        Mr. Chairman and Members of the Committee, I appreciate the 
invitation to appear before the Committee to discuss the current 
status of the Yucca Mountain Project and my plans over the next 
two and one-half years.
        It has been more than five years since I last appeared before 
this Committee as a vice president of Exelon Generation and 
testified about the Pebble Bed Modular Reactor (PBMR) project in 
South Africa.  During 2002 I was in South Africa as the Chief 
Operating Officer of PBMR assisting the South Africans in 
determining the feasibility of commercializing that technology.  I 
am pleased to report that the South African government has 
decided to proceed with demonstration and commercialization of 
the PBMR.  
        More recently, I was involved with forming a consortium to 
compete for the Next Generation Nuclear Plant project to 
demonstrate the cogeneration of electricity and hydrogen from the 
PBMR.  While that technology and demonstration project holds 
much promise, I see a more urgent near-term need for this Nation's 
energy security; that is to move the issue of the disposition of spent 
nuclear fuel and high-level radioactive waste forward with a sense 
of urgency.  It is for that reason that I accepted President George 
W. Bush's appointment to serve as the Director of the Office of 
Civilian Radioactive Waste Management (OCRWM).
        I have now been in my new position as Director for about five 
weeks.  During this period I have been conducting a thorough 
assessment of the Yucca Mountain Project, and that assessment has 
not yet been completed.  I continue to gather data on functional 
areas of the Project to determine the performance gaps between the 
current state and the levels of performance that will be necessary 
for the successful execution of this Project.  
        In order to expedite this assessment process, I have instructed 
my Office to issue Requests for Proposals for independent 
assessments of the draft License Application, the Quality 
Assurance programs and their implementation by DOE and its 
major contractor, and of the engineering processes and procedures 
being utilized by DOE and its major contractor.  While I am not 
yet prepared to give you a full report of my assessment, I can tell 
you that there are a number of very good people working on this 
Project who can form the nucleus of a high-quality team needed to 
successfully design, license, build and operate the Yucca Mountain 
repository and the waste acceptance and transportation systems.  I 
also can tell you that there are a number of process and 
organizational issues which must be addressed, all of which are 
correctable.
        There are four strategic objectives that I intend to pursue and 
implement during my tenure as Director.  Let me explain these 
objectives and why they are important.
        My first objective is to submit a high-quality and docketable 
license application to the Nuclear Regulatory Commission (NRC) 
no later than Monday, June 30, 2008.
 	This objective is my first priority and will receive my full 
management attention.  Success in meeting this objective is not 
measured only by the calendar, but also by the quality and 
completeness of the application.  Before I will allow the 
application to be submitted, I must be satisfied that:
        1. There is a repository design which meets the licensing 
requirements;
        2. The application accurately reflects the design;
        3. The data which are used to justify the design in the 
application are accurate and were generated in compliance 
with Quality Assurance requirements;
        4. The application adequately addresses all of the guidance of 
the Yucca Mountain Review Plan (NUREG 1804); and
        5. The writers of the application have attested to the accuracy 
and completeness of their sections.

        I am certain there will be those who will question how these 
criteria can be met with such an aggressive schedule.  I can tell you 
unequivocally that the concepts of safety, quality and schedule 
discipline are not mutually exclusive.  This concept is 
demonstrated by world class nuclear organizations on a daily basis 
and I intend to hold my organization and its contractors to the same 
standards.
        With a license application submittal on June 30, 2008, the best-
achievable schedule for Yucca Mountain would lead to receipt of a 
license to begin to receive and possess spent nuclear fuel and high-
level radioactive waste at Yucca Mountain in 2017.  Attached is a 
more detailed set of schedule milestones for your information. 
        Let me define what I mean by "best-achievable schedule."  The 
schedule after the Department submits the License Application is 
predicated on 1) appropriations consistent with the 
Administration's requests and passage of our proposed legislation 
entitled the "Nuclear Fuel Management Disposal Act"; and 2) an 
NRC construction authorization decision that is consistent with the 
timelines contained in the Nuclear Waste Policy Act.  There are a 
number of uncertainties currently beyond the control of the 
Department that have the potential to significantly delay the 
opening date for the repository and cannot be accurately predicted.  
The most important is the ability of the Department to have access 
to the Nuclear Waste Fund to support the cash flows needed to 
implement the Project.  I respectfully ask Congress to pass the 
Administration's proposed legislation to address this issue; access 
to the Fund is key to moving the Project forward.  
        Other factors that have the potential to delay the Project 
include:  1) the length and outcome of any derivative litigation, 2) 
Congressional approval of the permanent withdrawal of the lands 
needed for the operational area of the repository, and 3) obtaining 
any necessary Federal or state authorizations or permits for the 
repository and the transportation system.  The Administration's 
proposed legislation addresses most of these uncertainties and will 
go a long way in reducing schedule risk and the cost uncertainties 
of the Yucca Mountain Project while still fully protecting public 
and worker health and safety. 
        My second objective is to design, staff, and train the OCRWM 
organization such that it has the skills and culture needed to design, 
license, and manage the construction and operation of the Yucca 
Mountain Project with safety, quality, and cost effectiveness.
I am still in the process of assessing the current state of my 
organization and the skill gaps that may exist compared to what is 
needed to meet this objective.  I do know that additional skills and 
competencies are required to enhance the current organization and 
that attracting and retaining individuals with these skills will be a 
major challenge.  I have been encouraged, however, by the 
Department's Office of Human Capital Management and its help 
in meeting this challenge.
        My third objective is to address the Federal Government's 
mounting liability associated with unmet contractual obligations to 
move spent fuel from nuclear plant sites.
        What seems to have been lost in the Yucca Mountain debate 
over the last several years is that the U.S. Government has legally 
binding contracts with all owners of nuclear power plants to take 
possession of and remove their spent fuel.  There are two major 
implications of the Government's inability to perform per the 
contract requirements:  1) the financial liability borne by 
America's taxpayers for non-performance of the contract continues 
to grow every year, and 2) the ability of this country to depend on 
nuclear energy as a strategic energy option for the long term is in 
jeopardy because spent fuel continues to accumulate at existing 
plants.  There is no one solution to these problems.  It will require 
a portfolio of legal and financial solutions to address these 
problems; but it can be done, and I intend to work with the 
Congress and the contract holders to try to break this impasse.
        My fourth objective is to develop and begin implementation of 
a comprehensive national spent fuel transportation plan that 
accommodates state, local and tribal concerns and input to the 
greatest extent practicable.
        I believe that the planning of the transportation system for the 
country's spent nuclear fuel and high-level radioactive waste has 
been underfunded and not given the attention and resources that it 
demands.  The recent National Research Council's report on spent 
fuel transportation concluded that, while there are no technical 
barriers to the safe transportation of spent nuclear fuel, there are a 
number of social and institutional challenges that must be 
addressed before large-scale shipments commence.  I agree with 
this conclusion and I intend to put into place processes which 
maximize the ability of the public to understand the risks and 
mitigating safety precautions, and to influence as appropriate the 
selection of transportation routes in their areas.  Some work has 
already been done in this area with local planning groups, but 
much more needs to be done at an accelerated pace. 
        In summary, these four strategic objectives will form the basis 
of planning and resource allocation during my tenure.  I believe 
that these areas must be addressed today to move forward on the 
issue of final disposal of spent nuclear fuel and to prepare the 
Project for long-term success in meeting the mandated direction of 
the Nuclear Waste Policy Act.  I will do my best to make this a 
reality.


Attachment

Yucca Mountain Repository Schedule

Milestone											Date

Design for License Application Complete					30 
November 2007
Licensing Support Network Certification					21 
December 2007	
Supplemental Environmental Impact Statement (EIS) Issued	30 
May 2008	
Final License Application Verifications Complete				30 
May 2008
Final Rail Alignment EIS Issued							30 June 
2008
License Application Submittal							30 June 
2008
License Application Docketed by NRC						30 
September 2008


Best-Achievable Repository Construction Schedule

Start Nevada Rail Construction							5 October 
2009
Construction Authorization								30 
September 2011
Receive and Possess License Application Submittal to NRC	29 
March 2013
Rail Access In-Service									30 June 
2014
Construction Complete for Initial Operations					30 
March 2016
Start up and Pre-Op Testing Complete						31 
December 2016
Begin Receipt											31 March 
2017

The schedule above is based on factors within the control of 
DOE, appropriations consistent with optimum Project 
execution, issuance of an NRC Construction Authorization 
consistent with the three year period specified in the Nuclear 
Waste Policy Act, and the timely issuance by the NRC of a 
Receive and Possess license.  This schedule also is dependent 
on the timely issuance of all necessary other authorizations and 
permits, the absence of litigation related delays and the 
enactment of pending legislation proposed by the 
Administration.
        MR. HALL.  Mr. Boucher and I have agreed to recognize the 
Chairman of Energy and Commerce first and the ranking 
Democrat, Mr. Dingell, next for questions.  
        The Chair recognizes Mr. Barton.
        CHAIRMAN BARTON.  You caught me right before I was 
walking out the door.  I have got a hearing on global warming 
downstairs that has been going on all morning and probably going 
on all afternoon, so I appreciate it.  
        You talked about your legislative package.  The problem I have 
with trying to move it is--I have told you in my office--it doesn't 
seem to have a high prospect of being moved in the Senate.  So 
what is the Administration's plan if Mr. Dingell and I decided that 
we could move either the Administration's proposal or some 
version of that on a bipartisan basis through the House that we 
could get a reciprocal action in the other body?  
        MR. SPROAT.  Well, being a political neophyte on the Hill, I 
may not know all of the typical ways of working these kinds of 
issues up here, but what I will tell you is that what I find very 
encouraging is that the appropriations language in both the House 
and the Senate bills fully recognizes the issue of the importance of 
moving spent nuclear fuel forward, and the fact that there seems to 
be at least the consensus that the issue is important enough that it 
needs to be addressed in both houses is extremely encouraging to 
me.  
        What is also obvious, reading both the appropriation languages, 
is that there is not a clear consensus on exactly what should be 
done to move it forward.  And my commitment to you, 
Mr. Chairman, is that if I am given the opportunity I would like to 
play a role in trying to facilitate that discussion between the two 
organizations.  Because I have some ideas, the Department has 
ideas, clearly you do, and clearly the Senate does.  I think we have 
a unique opportunity here over the next 4 or 5 months to actually 
make something happen if we can get the right people in the room 
at the same time to talk about it.
        CHAIRMAN BARTON.  What happens to your plan if we don't 
move the legislative package?  What is Plan B in terms of meeting 
that deadline of having the licensing application to the NRC by 
June of 2008?  
        MR. SPROAT.  Based on the funding levels that are being 
proposed in both houses for the coming year, I expect no impact 
whatsoever in terms of funding impact on being able to submit that 
license application by 2008.  
        Now having said that, the other key issue is the remaining 
impact on the remaining program in terms of the long-term 
certainty of the funding stream, how long the project will take to 
build, which directly impacts the cash flows on an annual basis in 
the total cost of the project and it also impacts the ability to predict 
what the liabilities are associated with predicting when we can 
actually move spent fuel.  
        So not having that legislation clearly impacts the ability to 
predict with any kind of certainty how this project will move 
forward.  But in the very short term, over the next 12 months it 
really won't have an impact.  
        CHAIRMAN BARTON.  Does moving forward with the 
Administration's proposal on GNEP impact the Yucca Mountain 
schedule and emphasis?  
        MR. SPROAT.  It absolutely will not.  Personally, I believe 
GNEP is important.  Closing the fuel cycle is important for the 
future of this country, and we are going to have to do it.  When it is 
going to occur and how long it is going to take, I think there are a 
lot of diverse points about that, and I am not going to speculate.  
        But what is clear is that, number one, regardless of what 
happens with GNEP, there are waste forms and spent fuel forms 
that we currently have responsibility for to dispose that can't be 
recycled.  They have to go to repository.  They have to go to 
disposal.  
        As for the commercial spent nuclear fuel, whatever gets 
recycled through GNEP eventually will be a different waste form 
that comes out of the tail end of that process; and when we have 
that better defined, which may be sometime in the future, we will 
be able to design a waste package to handle that, qualify that waste 
package to put in the repository and submit a license application of 
the NRC to get permission to put that waste form in the repository 
at that point in time.
        CHAIRMAN BARTON.  Do we have the Administration's support 
and promise that they will not support any diversion of funds from 
the Nuclear Waste Fund that is supposed to go for Yucca to the 
GNEP program?  
        MR. SPROAT.  Yes, sir.
        CHAIRMAN BARTON.  Okay.  Mr. Chairman, I yield back. 
        MR. HALL.  I thank the Chairman.  
        I see the President has just issued a veto rejecting the bill to 
expand Federal research on stem cells obtained from embryos.  
And they reset the time for the next vote, Mr. Chairman, about 
3:30.  Then an hour from then they are going to take up the veto 
message and debate it and then have some votes at 5:00, so we will 
be interrupted from time to time here.  
        Mr. Dingell, the Chair recognizes you for as much time as you 
take, sir.  
        MR. DINGELL.  Mr. Chairman, you are most courteous.  Thank 
you.  I will try and stay within my time limit here.  
        First, for my information alone, would you please submit to 
me, not for the record, but submit to me a statement of all of the 
problems that you anticipate with regard to completing your 
scheduled construction and completion of the Yucca Mountain 
facility?  I might want to put it in the record, but I don't intend to 
tip over any garbage cans and inform people who might be out to 
delay or to stop the project from having you essentially be advising 
them on what they may do to slow the process.
        MR. SPROAT.  Just so I understand, what you are asking for is 
really a risk assessment of what are the key risks that I see to 
moving the project forward from where it is today to repository 
opening.
        MR. DINGELL.  Yes.
        MR. SPROAT.  Yes, sir.
        MR. DINGELL.  Now, with regard to the licensing schedule, if 
the Administration bill is not enacted, can DOE still submit an 
application to the NRC by 2008?  
        MR. SPROAT.  Yes, sir.  
        MR. DINGELL.  You can?
        MR. SPROAT.  Assuming that--obviously, appropriations for 
fiscal years 2008 and 2009 will have some impact on that; and, 
obviously, I can't without access to the waste fund because I 
wouldn't have that legislation.  I am at the will of the Congress in 
terms of what appropriations I would get legislated in that fiscal 
year 2008 which would cover that last part.  
        MR. DINGELL.  Do you feel an enactment of the legislation bill 
is necessary to meet the best achievable goal of opening Yucca 
Mountain in 2017?  
        MR. SPROAT.  Yes, sir.  I will give you one example.
        MR. DINGELL.  Will you tell us why?  
        MR. SPROAT.  One specific example--and I am not an attorney, 
and I don't pretend to understand this.  But, for example, we have 
requested the Congressional authority which we need for land 
withdrawal.  Right now, the Yucca Mountain site is on the Nevada 
test site which is owned by the U.S. Government.  But we need to 
be able to withdraw that land from public use on a permanent basis 
so we can assure the NRC that we will have control of that site, 
both access and future activities on it.  Right now, we don't have 
that--we can't give them that assurance, so that one issue just by 
itself--
        MR. DINGELL.  Is that regulatory or statutory action?
        MR. SPROAT.  I believe that is statutory, as I understand it; and 
that is one example.
        MR. DINGELL.  I would suggest if that be the case you get 
legislation up here as soon as possible.
        MR. SPROAT.  That is actually in that legislative package that 
we sent up earlier this year, sir.
        MR. DINGELL.  Now with regard to DOE's liability of breach 
of contract with the utilities, your testimony lists a number of 
concerns related to DOE's inability to meet its contractual 
obligation to be accepting waste.  You stated at page 6 there is no 
single solution.  But then you go on to say, "It will require a 
portfolio of legal and financial solutions to address these 
problems," close quote, and that you will, quote, "work with the 
Congress and the contract holder to try and break this impasse."  
        Can you tell us exactly what is this impasse?  
        MR. SPROAT.  Well, impasse is my term that I use because, as I 
said, I started working on this issue when I was with PECO Energy 
back in 2000 or 2001.  The impasse is that we still have the vast 
majority of the commercial nuclear plant license holders who have 
contracts with the DOE that we are basically in litigation with, and 
the potential liability to the taxpayer is continuing to mount.  We 
are making very slow progress in terms of moving that issue off of 
where it has been stuck.  
        What I learned from my involvement in this issue back when I 
negotiated the PECO settlement was that there is no one solution.  
In other words, one fix doesn't--the industry is--
        MR. DINGELL.  I was going to say you have got a lot of 
problems.
        MR. SPROAT.  There are the issues with the shut-down plants, 
for example.  They are out of the business.  They want to get rid of 
the fuel and get rid of the liability.  There are other companies that 
are planning to stay in the nuclear industry for a long period of 
time, and they are in it for the long haul, and then there are others 
who are still trying to figure out what is an appropriate settlement 
for them.  
        So the quick answer is there is a portfolio of I think legal 
settlement and possibly technology issues that can possibly help 
here, but there is no one quick fix that fixes all of this, I don't 
believe.
        MR. DINGELL.  Now I think you are telling us that we should 
expect a second legislative proposal in addition to that which you 
set up in April of 2006, is that correct?  
        MR. SPROAT.  I wouldn't say that yet.  I don't know if I need 
any additional legislation.  It is certainly a possibility.  But what I 
would like to say is I would like to have an opportunity to have 
more dialogue and negotiations on this with all of the interested 
stakeholders first.
        MR. DINGELL.  Now you had mentioned the impasse and the 
contract holders.  How do you propose to work with the contract 
holders on this matter?  
        MR. SPROAT.  I am still--having only been here for 4 weeks, I 
really haven't laid out a full plan about that yet.
        MR. DINGELL.  But you are going to have to do that?  
        MR. SPROAT.  I am going to have to do that.  No doubt about 
that.
        MR. DINGELL.  I am not going to expect any miracles from you 
today.  Tomorrow, yes, but not today.  
        Over many years, DOE provided this committee with 
summaries of projected spending for Yucca Mountain which 
outlined future budget needs.  While some past summaries have 
indicated that DOE may need to tap the corpus of the Nuclear 
Waste Fund to open Yucca Mountain, others have suggested that 
the program could be squeezed by using only annual contributions 
to the fund.  
        Now, questions.  Now that you have established revised 
timetables for filing a license application and for opening 
repository, can you tell me whether or not DOE will need to tap the 
corpus of the fund between now and the time the repository opens?  
        MR. SPROAT.  No, I can't, but let me clarify that.  There is no 
doubt in my mind that during the life of this project--assuming we 
get an authorization to construct and a license to operate, there is 
no doubt in my mind we will have to tap the corpus of the fund 
during that time period.  In terms of do I need it to build it, my best 
answer is--right now is I don't know, because I haven't had the 
time to take a look at the projected cash flows and challenge them 
from a management perspective.  Yet to say this is the right set of 
cash flows through the construction period and can I meet those 
cash flows with receipts and interest or do I need corpus, I just 
can't answer that question yet, sir.
        MR. DINGELL.  All right.  Will you provide the committee with 
the best updated version of the projected program costs you can 
give us?  
        MR. SPROAT.  Yes, I will. 
        [The information follows:] 

        We are currently in the process of re-calculating the cash flows 
for the Yucca Mountain Program based on the CD-1 recently 
approved scope.  We anticipate having the revised cash flows 
available to provide to the Committee by the end of CY 2006.

        MR. DINGELL.  Mr. Chairman, I have got other good questions, 
but I am loathe to consume the time of the committee.  I don't 
want to cause problems here. 
        MR. HALL.  The Chair thinks it is worthwhile to grant you 
another 5 minutes.
        MR. DINGELL.  Then I'll wait.  Thank you, Mr.--
        MR. HALL.  No.  Go ahead now while you are on a run.  
        MR. DINGELL.  I understand that your tenure at DOE has been 
brief, but I am concerned that your plan to issue new requests for 
proposals for independent assessments of the repository program 
could lead to further delays.  How do these new studies square 
with your goal of filing the license application with NRC by 2008?  
How will you avoid getting bogged down in new reviews?  NRC is 
not known for the blinding speed with which it processes its 
business.
        MR. SPROAT.  Very good question, sir.  
        As I stated in my opening statement, the issue for me is not 
necessarily by itself getting an application in no matter what it says 
or no matter what its quality by that date.  I have to have the 
quality and the completeness by that date.  And the only way I can 
assure myself that I have addressed the issues that need to be 
addressed by this program--by my program by the time that 
application goes in is I need to do some additional independent 
assessments around pieces of this program that I have concerns 
about, and those concerns are based on what is available in the 
public record that I was able to read and study up on while I was 
awaiting confirmation.  
        It is very clear this program has had a poor history of quality 
assurance implementation and issues.  So I think it is extremely 
important that I get in a set of outside independent eyes of very 
qualified people to take a look at the programs at DOE, its primary 
contractor, and the key national labs to tell me either how good or 
how bad those programs are so I can get them fixed before that 
application goes in.
        MR. DINGELL.  Now I applaud this, but how are you sure this is 
not going to slow the project down?  
        MR. SPROAT.  I won't let it.  
        MR. DINGELL.  Then let us pray.  
        Given the existence of a Nuclear Waste Technical Review 
Board, why are new assessments initiated through requests for 
proposals necessary?  Could involvement by the Board save time?  
        MR. SPROAT.  No, it won't.  The Board has a very specific set 
of expertise that is geared to look at the science and the 
probabilistic risk of the repository.  These issues that I am doing, 
these independent assessments on are more of a programmatic 
nature; and the Board doesn't have the right skill mix to do them 
adequately, in my opinion.
        MR. DINGELL.  Now I observe here and I concur with your 
statement on page 4 that it is critical for DOE to have access to the 
Nuclear Waste Fund to support cash flows to implement the 
project.  I agree with that.  I have no particular objection to the 
legislative reclassification to which you refer, which was included 
in the Administration's proposed bill.  However, I believe this is 
only a partial solution since it addresses only future rate payers' 
contributions to the fund.  
        Now the question.  I reluctantly voted against past legislation 
that did not safeguard the existing corpus of the waste fund.  Why 
does DOE not support this clearly needed reform?  
        MR. SPROAT.  I am sorry.  Doesn't support which?  
        MR. DINGELL.  People are raiding this fund left and right.  It is 
being spent for all matters and purposes inconsistent with that 
which Congress established the fund for.  It would appear to me 
that a responsible and needed reform to this matter would be to say 
to these other people they need to keep their cotton-picking hands 
off of it and break their knuckles every time they reach so you can 
see to it that the fund is spent for the purposes for which the 
Congress set it up.
        MR. SPROAT.  I am from a State that has the second-most 
amount of spent nuclear fuel in the country, and I personally have 
contributed a lot of money into that Nuclear Waste Fund, and 
Mr. Shimkus--
        MR. DINGELL.  There is a whole bunch of people that have.
        MR. SPROAT.  And Mr. Shimkus is from a State that has the 
most spent nuclear waste in the country.  We are all on the same 
page that that fund needs to be used for the purpose for which it 
was intended.
        MR. DINGELL.  But there are lots of light-fingered folks who 
are putting their hands in the till and taking that out for other 
purposes.  How are we and why are we not going to insist that that 
fund be protected instead of dissipated for purposes inconsistent 
with what the Congress set it up for?  
        MR. SPROAT.  I think that is a very legitimate question, and I 
am not well versed enough on the budget process and the 
budgetary procedures and laws around that.  I guess all I can 
commit to you is that I understand exactly what your position is, 
and with the legislative package we put up here we think it is a 
good start in moving in that direction and--
        MR. DINGELL.  Start but not a finish.
        MR. SPROAT.  Maybe not.  
        MR. DINGELL.  And I am troubled because, again, good-hearted 
folk are spending this thing for all manners of other purposes.  It 
starts with OMB, the President's Office, it goes on down through 
the Appropriations Committee and the Budget Committees; and 
nobody can stop these rascals from doing it.  We set the trust fund 
up so there would be money to address these problems; and, lo and 
behold, they are using it for different purposes so it is not 
available.
        MR. SPROAT.  In terms of--I can't speak for how the accounting 
in government works, but in terms of disbursements from the fund, 
it is very clear it can only be used for Yucca Mountain.  And there 
are--at least I am not aware of other programs that are actively 
taking withdrawals out of the fund for other programs.  I don't 
believe that is the case.
        MR. DINGELL.  We will send you information in that regard.  
        Mr. Chairman, I thank you for your courtesy. 
        MR. HALL.  Thank you, sir.  We always allow the Chairman 
and Ranking Member all of the necessary time that they can take 
because of their schedule.  
        At this time, I have just a question or so to ask you.  
        The total system life-cycle cost estimate has not been updated 
since 2001.  Now that DOE has a revised schedule, if I missed it--
you may have already said it--but when do you plan to issue a 
revised estimate?  
        MR. SPROAT.  I understand, sir.  We are currently working on 
that.  I would expect that to be probably early fall timeframe, and 
we will have that ready for examination. 
        MR. HALL.  Will the current one mil per kilowatt hour charge 
be adequate to fund that?  
        MR. SPROAT.  Based on everything I have seen so far--and let 
me couch this by saying I haven't done a detailed review, but 
based on my preliminary discussions with the staff, there is no 
indication that that needs to change. 
        MR. HALL.  The previous DOE testimony before the committee 
indicated that DOE estimates that liability costs may reach 
approximately $500 million per year plus another $500 million per 
year for continued storage of defense waste.  What can DOE do to 
mitigate these costs to the American taxpayer?  
        MR. SPROAT.  Well, clearly, by my third strategic objective that 
I outlined, I clearly understand the importance of moving this issue 
forward.  Our protection right now--just to give you the numbers 
that I have in front of me--that if we were to open the repository in 
early 2017, the total liability we are projecting at that point in time 
is about $7 billion--billion with a "b" total.  
        I think there are things we can probably do both in terms of 
settlement with people as well as maybe some other things that we 
may not have legal authority to do right now to help drive that 
down.  Clearly, the other things we can do, assuming we get the 
funding and the other issues in our legislative package that we 
have asked for, that upon which our best achievable schedule is 
predicated, assuming we can get those, I think you know there may 
be an opportunity to further compress the construction schedule 
but I am not really ready to commit to that today yet. 
        MR. HALL.  I am going to try to be around to hold you to that 
2017 deal.  George Burns said he didn't buy green bananas.  
        All right.  Who is next here?  Ranking Member Boucher, the 
Chair recognizes you for 5 minutes.
        MR. BOUCHER.  Thank you, Chairman Hall.  I am totally 
confident that you will be around in 2017 in order to bless the 
opening of this project, and I notice that you normally do buy 
green bananas.  So thank you for recognizing me.  
        Mr. Sproat, I am very impressed with your confidence and with 
your determination.  I applaud your analytical approach and the 
determination that you exhibited in your statement here today; and 
I certainly wish you well with what, as Chairman Barton indicated, 
will be a very difficult task.  I realize you have been here 4 weeks 
so, obviously, you didn't totally complete the schedule on your 
own, and I am sure it was well in the process of formulation at the 
time you arrived.  
        Let me ask if you are totally comfortable with the schedule.  
Do you believe this represents a realistic timeframe for moving 
forward?  
        MR. SPROAT.  Yes, sir, it does.  I would not have brought it up 
here if I didn't believe that.  And if you will notice the timeframe 
of the license applications submittal which is 23 and a half months 
off now, I still plan to be here by that date.  I know that if I miss 
that date I am probably going to get hauled up here and have to 
explain it, and I don't intend to go through that.  
        MR. BOUCHER.  Mr. Dingell has propounded many of the 
questions, I also noted, about budgeting, but let me just extend a 
couple of those.  
        Referencing the budget that you will need in order to complete 
the preparation and submission of the license to the Nuclear 
Regulatory Commission, I believe $156 million has been requested 
for fiscal year 2007.  Do you believe that amount is adequate for 
that year and what amount do you think will be necessary for fiscal 
year 2008 to let you complete this work successfully?  
        MR. SPROAT.  That is a very good question, and I am really not 
prepared to answer.  I would have to say that I know that in the 
total budget that I have available to me in fiscal year 2007 and 
what we would hopefully anticipate in fiscal year 2008 there 
should be more than sufficient funds in there to complete those 
submissions.  
        In terms of the allocation of the funds within the budget, in 
terms of license applications versus other activities, I am very clear 
my first priority is the license application preparation, in getting it 
done; and if I need some relief from Congress in terms of moving 
some funds around in my budget to allow that to happen, I intend 
to come back and ask for it.
        MR. BOUCHER.  Then in the fall you are going to present 
further budgetary information and we will have an opportunity to 
question you more carefully with that.
        MR. SPROAT.  Yes, sir.
        MR. BOUCHER.  Let me ask, as you prepare for that appearance 
here, to give some attention to a very key question which 
Mr. Dingell propounded, and let me emphasize this, and that is the 
point at which you are going to need to start dipping into the 
Nuclear Waste Fund and have monies available to you that exceed 
the annual $750 million dollars that ratepayers are contributing 
into the fund.  
        I frankly find it hard to imagine that you will not need that 
corpus.  Over the approximately 10 years that separate now from 
your projected opening date only about $10 billion would come 
into the fund.  Add another 10 percent in interest and if you can get 
that these days and that gives you maybe $11 billion.  I can't 
believe you could actually build this facility and do the other work 
and engage in the settlements that you are going to have to address 
for $10 billion.
        MR. SPROAT.  That is a very good point; and, as I said before, I 
am not quite ready to defend the cash flows yet.  
        However, let me say there is a piece on the other side of that 
equation, having come from the private sector on large projects 
like this where I believe there is a limit to what a project can 
effectively spend and manage on an annual basis.  This project has 
the potential, if it is not appropriately managed and led, to spend a 
lot of money and not accomplish a lot.  
        So as I take a look at the cash flows on this project during the 
construction years, because we are going to be building a rail line 
and be building the repository and then whatever other capital 
investments we need to do in order to get the fuel from wherever it 
is on that rail line to the mountain, you are right.  It is not beyond 
the realm of credibility that we are going to need more than $800 
million a year.  
        But, at the same time, I have got to make sure I put in place the 
management processes with the right people to be able to 
effectively manage a project that can handle cash flows that large 
or larger; and I will tell you right now I don't think we are there 
yet.  
        MR. BOUCHER.  And we are also not there in terms of 
protecting these monies from intrusion from other sources, 
including the $19 billion that currently resides in the fund which is 
available for expenditure.  And, in fact, I would differ with your 
statement earlier.  That money, in fact, has been expended; and 
walling off that amount, just having a decision by the Congress to 
say we are going to protect $19 billion, we are going to put it aside 
and make it available to finish this program is, in my personal 
view, of the utmost importance.  As you are preparing your future 
budgetary projections to us, bear in mind that that money is not 
guaranteed.  It is not assured, given the current legal structure.  
        A couple of other questions.  Are we going to need some kind 
of interim storage between now and 2017?  That is still a long 
time.  That is 10 years for waste to continue to pile up at reactor 
sites.  What are we going to do with it?  
        MR. SPROAT.  Let me try to answer the question this way.  We 
currently have a lot of interim storage.  We have interim storage at 
126 sites.  Mr. Shimkus has a lot of interim storage in his State.  I 
licensed one of our plants, and we've got a lot in Pennsylvania, and 
a lot of the people in this room have interim storage.  So it is not a 
question of interim storage.  
        It is a question of, number one, how do we reduce and 
minimize taxpayer liability associated with contract 
nonperformance by DOE.  And, number two, it is about how do we 
provide waste confidence for the new wave of nuclear plants that 
are being considered now.  This is a real issue for the people who 
want to build new plants.  
        So that those are two key issues that further additional interim 
storage and in my term what I call centralized interim storage is a 
potential legitimate solution.  
        Now, having said that, again coming back to looking at both 
the House appropriations bill and the Senate appropriations bill, 
there seems to be a recognition on both sides that we wanted to do 
something with this, but there is not a clear consensus on exactly 
what.  I think that there are some opportunities to work there, but I 
would say that knowing what it takes to license a centralized 
interim storage facility in terms of citing whatever litigation that 
comes with it, the licensing process and the construction process, if 
we are able to get the legislative package that we have sent up to 
the Hill passed on Yucca Mountain and we are able to get Yucca 
Mountain opened up in the 2017 timeframe, I don't think 
centralized interim storage is going to buy very much, I really 
don't.
        MR. BOUCHER.  So if we actually meet the 2017 schedule, that 
diminishes the need for interim?  
        MR. SPROAT.  Yes, sir.
        MR. BOUCHER.  Given your expertise, I am compelled to ask 
this question.  I had followed a little bit the Pebble Bed exercise in 
South Africa.  We heard a lot about it for a while in the early 
phase, and then we didn't hear very much.  At the time, probably 
4 years ago, when this was a topical subject, some of the electric 
utilities in the U.S. were saying this might be the new model for 
going forward here in the U.S. as well.
        MR. SPROAT.  That was me saying that.  
        MR. BOUCHER.  I thought I heard your name.  So what 
happened to it?  Did it pan out as you had expected?  Does it add to 
safety?  Does it add to efficiency?  Is it lower cost than 
conventional technology?  Is it possibly a model for going forward 
here in the U.S.?
        MR. SPROAT.  Well, what happened to it was I went down to 
South Africa for a year to run the joint venture down there, and I 
went down because I was asked by the South African--by the 
board of directors to come down to get the project to the point 
where the investors could make an informed decision about cost, 
design, schedule, commercialization strategy.  And basically I did 
that, and I finished that responsibility in the end of 2002.  
        What has happened since that time, the South African 
Government has taken that body of work that we produced and 
made a decision at the Presidential level that the project is going 
forward in South Africa as a national strategic project.  They have 
ramped the project up quite a bit from where I have left from a 
budget and a personnel standpoint, and they are planning on 
building a demonstration PBMR outside of Cape Town and to 
break ground on it sometime I think late next year is the latest 
schedule I have seen.  
        So it is moving forward, and if they are successful in 
demonstrating it, part of their overall strategy is to get that license 
certified here in the U.S. with the NRC so that it could be another 
option for U.S. utilities who might decide they want a smaller 
modular reactor as opposed to a big megareactor.  
        MR. BOUCHER.  That would potentially add to safety, to 
efficiency, to reduce cost?  
        MR. SPROAT.  Yes, it would.  
        MR. BOUCHER.  Thank you.  
        MR. HALL.  Thank you very much, Mr. Boucher.  Because we 
have only one witness, and we have run over a little on the 
questions, and the Chair at this time recognizes Mr. Shimkus, the 
gentleman from Illinois --his name has been taken not in vain, but 
referred to several times.  I give you s3 extra minutes, and 
recognize you for 8 minutes.  
        MR. SHIMKUS.  Whoo hoo.  Thanks, Mr. Chairman.  Thanks 
for being here, and, of course, we have had a lot of work on a lot of 
issues for a long time, and I am pleased to see you in your current 
position.  And just in the line of--with my friend Mr. Boucher, we 
are also working on coal liquid applications, which South Africa--
and actually the Government paid, invested, took the risk over 
decades.
        MR. SPROAT.  Yes.
        MR. SHIMKUS.  And now they are sitting in the catbird seat as 
the world is trying to find coal liquid technologies, and maybe that 
is the same thing with this eventually, and we don't operate that 
way.  Maybe we should.  We may do the science here, but we 
definitely--it is just not in our nature to take on a major risky 
project.  So I have to applaud them for their foresight.  Hopefully it 
will pay off like the coal-to-liquid technology is paying off in 
South Africa now.  
        MR. SPROAT.  I hope so.  
        MR. SHIMKUS.  There is no bigger issue facing this country 
than opening Yucca Mountain.  It just sends a signal of our desire 
to be independent to the market.  It will address the waste, it will 
lower risk, and we look like fools up here.  
        I will be honest with you, I was teaching high school, and 
Yucca Mountain was one of the case studies in the book.  I 
remember--and I mentioned this in the hearings, and, you have got 
this American Indian, this horse sitting on top of Yucca Mountain, 
and the case study was seizing of land for this repository.  And we 
operated on old textbooks, and this was 1986.  
        So we just have to--I mean, I think what you hear from 
Members is, we applaud a schedule.  There is some reticence to 
believing it.  
        MR. SPROAT.  I understand that.  
        MR. SHIMKUS.  And it is justifiable.  
        MR. SPROAT.  I understand that.  
        MR. SHIMKUS.  But let us know what we can do, and ask for 
assistance, and help hold us accountable to meet these standards, 
because you have a lot of support here, and in this new 
environment of the desire to really be diversified in electricity 
generation, that is my position, and have a lot of competing 
generators out there, living up to our responsibilities and our 
requirements under law, we need to be there as a partner to make 
sure that this happens.  
        Do you believe the Department has the scientific information, a 
sufficient breadth and depth, to support a high-quality and 
defensible license application?  
        MR. SPROAT.  I think it certainly has the base of that.  I don't 
know yet whether or not it has all that it needs.  
        MR. SHIMKUS.  And that is why you are doing that?  
        MR. SPROAT.  One of the reasons I am doing that assessment.  
It is another reason why I spent several hours with the NWTRB 
members just this past week to take a look at their latest annual 
report to Congress of what their key technical issues are that they 
see, and my intent is to take those issues and incorporate them into 
my science program this year to make sure that I am focusing the 
organization on gathering information and doing analysis that will 
help address the NWTRB's issues that they told us they still have 
concerns about.  
        MR. SHIMKUS.  As you do this assessment, that will probably 
help give you some guidelines as to what you plan to do; if there 
are some gaps, how you will address those.  
        MR. SPROAT.  Exactly.  
        MR. SHIMKUS.  I think also what Members would appreciate, 
that if in this assessment, in these shortfalls, you see where we can 
be engaged, then you, through the Department, should be up here--
        MR. SPROAT.  Yes, sir.  
        MR. SHIMKUS.--as quick as possible.  There will be continued 
finger-pointing if we do not meet schedules.
        MR. SPROAT.  I understand.  
        MR. SHIMKUS.  Many of us don't want to be on the end of that.  
We want to say we have done all we can.  
        MR. SPROAT.  Believe me, I have no doubt that if we don't 
meet the schedule, the finger-pointing will be right at me.  
        MR. SHIMKUS.  That is that old one this way, five, four this 
way.  
        One of the worst ideas that has come out of the Senate is 
Domenici-Reid and these 33 interim storage sites.  Doesn't that 
make your work additionally more complicated?  
        And it is okay to bash the Senate while you are over here.  You 
just have to be careful when you go back over there.  
        MR. SPROAT.  I am going to see Senator Domenici tomorrow 
afternoon.  I don't think it makes my job more difficult.  And I 
want to go back to what I said in the beginning.  I really am 
encouraged, the fact that both the House and the Senate have this 
issue on the table, that this recognition by both houses that this is 
an important issue that needs to move forward, and I view that as 
an opportunity more than a threat.  And I would like to have more 
discussion with both houses around that because, quite frankly, I 
have got some experiences in terms of licensing interim storage 
and hopefully can inject some reality into the process and into the 
thinking so that hopefully we can come to some kind of consensus 
that hopefully make some sense.  
        MR. SHIMKUS.  We are already talking about Yucca Mountain, 
and we already know we are way behind there.  There is already 
debate in the Department on the second repository.  Then you are 
addressing 33 interim sites.  I know our colleague, now Governor 
of Maine, is already starting to raise some issues.  
        MR. SPROAT.  Yes.  
        MR. SHIMKUS.  I can see 33 other Governors raising some 
issue.  I can see transportation debates, politicization of this issue.  
We just can't--I am on record.  That is the stupidest record I ever 
heard of, and we need not go there, and if I see Senator Domenici, 
I will tell him.  I am sure he will tell me what--
        MR. SPROAT.  Let me just talk about the second repository just 
for a second because that is a very good point.  In our legislation 
package that we sent up, one of the things that we asked for was 
relief on the administrative limit of 70,000 metric tons of uranium 
to put in the mountain.  That was strictly an administrative limit 
that was put in the law.  Technically the mountain can hold a lot 
more than that, probably close to double.  And what we are asking 
for is relief from that 70,000 metric ton limit and allow the NRC to 
make a determination as to what the maximum licensable limit of 
storage in the mountain is, based on the actual mountain 
configuration.  
        If we get that, I think it is extremely defendable to say that it is 
unlikely we are going to need a second repository any time in our 
respective lifetimes.  If we don't get that relief, if we don't get that 
legislation, I am going to have to come back to the Congress 
sometime while I am in this office and say, we need a second 
repository.  
        MR. SHIMKUS.  My last question.  You understand because you 
have been in the private sector, the corporate culture.  And talk 
about the corporate culture of the NRC--a DOE site that is going to 
be regulated by the NRC, and what are we doing in preparation of 
that?  
        MR. SPROAT.  Well, my second strategic objective I talked 
about was about getting the organization, the OCRWM 
organization, and DOE ready to become a credible NRC licensee, 
and it is all about culture.  It is all about understanding safety, 
quality, integrity, continuous improvement, teamwork.  And I am 
very clear--I was very heavily involved in leading a corporate 
culture change initiative at the old PECO Energy, Philadelphia 
Electric, when we changed it from a nuclear organization that had 
to shut down a plant because operators were found sleeping to 
being the premier nuclear operator in the country.  And we 
engineered that turnaround of that culture change there, and we 
then did it for Philadelphia Electric, PECO Energy, across the 
entire corporation, and that let us become the organization that 
formed the basis of Exelon with the merger with ConEd.  
        So I know what it looks like, I know how to do it, and I intend 
to go make major steps in moving us forward in the next 2, 2-1/2 
years while I am here.  
        MR. SHIMKUS.  Thank you, Mr. Chairman.  I will end, and I 
will just end on thanking you.  And based upon the success of you 
and your wife raising a young lady to attend the United States 
Naval Academy, I am going to say all good things.  And the 
success there bodes well for the success of this.  And I yield back
        MR. SPROAT.  Thank you very much.  
        MR. HALL.  Thank you.  
        Recognize Mr. Wynn from the State of Maryland.  
        MR. WYNN.  Thank you, Mr. Chairman.  
        Thank you, Mr. Sproat.  
        Maybe about four questions.  First of all, what is the advantage 
of putting the fund off budget?  
        MR. SPROAT.  Well, I am certainly not the right person to ask 
in terms of trying to explain the Federal budget process here, 
because I just don't understand it.  But the reason we are asking for 
it is because we believe that by giving us the right to receive the 
annual receipts being paid by the utilities into the Nuclear Waste 
Fund and giving us access to those funds directly to allow us to 
spend them in the years they are received, it eliminates that 
funding uncertainty that we have right now that up until now has 
had some impact on the program--
        MR. WYNN.  Feel certain about whether you will get the 
appropriations?  
        MR. SPROAT.  I am sorry?
        MR. WYNN.  Is there uncertainty about whether you will get the 
appropriation?  
        MR. SPROAT.  Yes, sir.  It is an uncertainty on whether we will 
get the appropriations, and particularly given the fact that based on 
the current--as I understand, and I may be wrong, but as I 
understand the current legislative requirements around budgets and 
the Federal--and the Federal deficit, that where I would go from 
spending around a half a billion dollars a year now to ramping up 
maybe during peak construction of maybe more than a billion a 
year, under the current process that would be very difficult for the 
House and the Senate and OMB to mark appropriately.  And it is 
probably more than I understand about the process.
        MR. WYNN.  Okay.  What happens to the funds that have 
already been paid?  Are they set aside for you, or are they subject 
again to appropriation?  
        MR. SPROAT.  They are--
        MR. WYNN.  I am trying to find out where this money is and 
get a handle on it.  
        MR. SPROAT.  There is a national trust fund that the 
Government has called the Nuclear Waste Fund, and it is 
accumulating interest.  It is certainly intended to be used strictly 
for disposal of high-level nuclear waste material.
        MR. WYNN.  Do you have authority over that fund?  
        MR. SPROAT.  No, I don't.  
        MR. WYNN.  Who has authority over that fund?  
        MR. SPROAT.  Basically the Congress.
        MR. WYNN.  So it is up to us.  You don't want that uncertainty?  
        MR. SPROAT.  Yes.  
        MR. WYNN.  That is fair.  
        The other question I wanted to ask, there has been some 
suggestion that reprocessing might preclude the need for Yucca.  
Do you agree or disagree with that?  
        MR. SPROAT.  I totally disagree with that.  It is very clear, no 
matter what we do with reprocessing, there are other waste forms, 
high-level waste from the weapons program and other spent 
nuclear fuel, probably spent naval nuclear fuel, that can't be 
reprocessed and needs to go right into disposal.  
        MR. WYNN.  Okay.  Thank you.  
        Another question I have is a note that you say on about 30 
June, 2008, you believe you will have the final EIS rail alignment, 
EIS issue.  Have you considered the potential litigation around the 
EIS in calculating this schedule?  I know with road construction, I 
have seen delays as much as 10, 15, even 20 years just in terms of 
litigation over EIS.  
        MR. SPROAT.  Yes.  That is a very good question.  And let me 
just be clear, that milestone that I put there indicates when we want 
and need to have that EIS issued.  What is not factored into that 
schedule that I gave you is litigation that may occur, and we all 
have our own opinions of will it occur and how long will it take.  
We have not factored in contingency around litigation on that 
schedule on any of the milestones.  
        MR. WYNN.  Is there any way to get around that problem, 
because it seems to me that that could add another 10 years 
potentially to this issue, to the schedule.  
        MR. SPROAT.  I am not sure.  I am not sure.  
        MR. WYNN.  And I guess the last question I have is, now, as a 
result of the suit by the utilities, DOE has some liability.
        MR. SPROAT.  Yes.
        MR. WYNN.  And it is my understanding that the Federal 
Judgment Fund is the only source you can tap into; is that correct?  
        MR. SPROAT.  That is correct.  
        MR. WYNN.  Is the Federal Judgment Fund sufficient?  
        MR. SPROAT.  That is administered by the Department of 
Justice, and I just don't know what the funding mechanisms or 
budget mechanisms are for that, sir.  I just don't know.  
        MR. WYNN.  Two questions.  One, do you know the amount of 
the liability, of DOE's liability?  
        MR. SPROAT.  From what I believe as of today--and there are 
going to be differences between what the industry might say the 
liability is versus what we would calculate--
        MR. WYNN.  Ballpark.  
        MR. SPROAT.  But right now we believe the liability is probably 
in the neighborhood of about $3 billion, and by 2017 we believe it 
would be up to about $7 billion.  
        MR. WYNN.  Seven billion dollars.  
        MR. SPROAT.  Yes.
        MR. WYNN.  Is it fair to say the Federal Judgment Fund doesn't 
have that kind of money?  
        MR. SPROAT.  I don't know.  I just don't know.  
        MR. WYNN.  If, in fact, the Federal Judgment Fund doesn't 
have this kind of money, you are suggesting that there is a 
legislative fix to cover this liability.  Do you have any suggestions 
for us as to how we might do this?  Are we basically saying the 
taxpayers are going to have to fork over the money for the liability 
in addition to the money they paid as ratepayers into the fund?  
        MR. SPROAT.  If everything stays the same as it is now, the 
answer is yes, the ratepayers--I am sorry, the taxpayers need to 
fund that additional liability.  That is why on my third strategic 
objective of trying to move this issue forward to trying to reduce 
that liability in some way or through a portfolio of solutions, I 
think that is really important.  How successful we can be in the 
next 2, 3 years to do that, I just don't know yet.  
        MR. WYNN.  Are there any settlement discussions with regard 
to perhaps utilities being willing to accept less?  
        MR. SPROAT.  There are settlement discussions going on, yes, 
and I was the first, when I was with PECO Energy, I negotiated the 
first settlement with the Department on that.  
        MR. WYNN.  Is it possible that we could be kept abreast of 
developments in the settlements, kind of either briefing us or--
        MR. SPROAT.  I would be more than happy to do that, 
absolutely.  
        MR. WYNN.  Thank you.  
        Thank you, Mr. Chairman.  I have no further questions.  
        MR. HALL.  Chair recognizes the gentleman from 
Pennsylvania, Dr. Murphy.  
        MR. MURPHY.  Thank you, Mr. Chairman.  And thank you for 
being here as well.  
        A couple questions I have, and I would like to follow up a little 
bit on some of these liability issues, but in general the cost.  How 
much have we spent so far on all of the studies, and how much do 
we anticipate we will spend on everything involved with Yucca 
Mountain, the land, the preparation, the transportation, all these 
legal issues, et cetera.  What have we spent, and what are we going 
to continue to need before we even move anything in there?  
        MR. SPROAT.  I had to get some help from the side.  My 
understanding is that in terms of the Yucca Mountain project itself 
and the site characterization, about $5 billion, with a B, and the 
total program expenditures for all aspects of spent nuclear fuel 
disposal in Yucca Mountain and everything, probably about $8 
billion total.  
        MR. MURPHY.  And then the liability issues are on top of that?  
        MR. SPROAT.  The liability issues are on top of that, yes, sir.  
        MR. MURPHY.  Now, this is being paid for by the utilities and 
folks who have the spent nuclear fuel and pass on to the ratepayers.  
Will all that be enough?  
        MR. SPROAT.  As of right now, based on the numbers that I 
have seen, again, which I haven't had an opportunity to challenge 
and scrub, but based on everything I have seen so far, we believe 
the waste fund and its projected accumulated assets will be 
adequate to fund the entire project and its operation, assuming we 
get access to it in the corpus at the appropriate time.  
        MR. MURPHY.  And that leads to my next question then, 
because representing companies like Westinghouse Electric in my 
district, which we are waiting to start building several nuclear 
reactors, and, of course, there is a lot of steps-- Yucca Mountain is 
one of the steps in the process of approval.  I am just trying to get a 
sense if the pieces are fitting together here in terms of the 
timeframe for Yucca Mountain, being able to move spent nuclear 
fuel there, and having the approvals for these new plants.  As 
everything is moving together, it is like a chain being pushed up a 
hill.  Are things moving together in sequence appropriately there?  
        MR. SPROAT.  There are things that have to happen that still, in 
my opinion, need some close attention.  One is the whole issue 
about waste confidence, as I talked about a little bit earlier.  The 
NRC needs to make a finding with these new license applications 
that there is a high confidence level that spent fuel will be disposed 
of, and at least we will have a way to dispose of it by 2025, a 
reasonable assurance of that.  So waste confidence is clearly an 
issue.  
        Secondly, the standard spent fuel contracts that the existing 
plants have written--I am sorry, have signed between the existing 
licensees and the Department of Energy will not be adequate for 
the new plants.  And we, my organization, needs to put together a 
new standard contract and negotiate those with the new licensees.  
        MR. MURPHY.  And you will be able to give us ongoing reports 
of these things?  Can you give us quarterly reports on the progress 
of all those issues there?  
        MR. SPROAT.  Yes, sir.  
        MR. MURPHY.  Another area is the radiation standard that is 
currently under revision and likely to be finalized by the EPA later 
this year.  Are you confident we can meet that?
        MR. SPROAT.  Based on what I have been told, the draft 
standard that has been proposed and put out there in draft form we 
can meet.  I need to see what the final version looks like and what 
it says before I am able to say in terms of going forward, yes, we 
absolutely can do it, but based on the draft, the answer is yes.  
        MR. MURPHY.  And you will again provide the committee with 
your updates on that?  
        MR. SPROAT.  Yes.  
        MR. MURPHY.  How about another issue here, too, because the 
liabilities also affect public confidence, and whenever there are 
some problems with regard to scientific studies done, it leaves us 
to be concerned.  What is being done with regard to the USGS 
e-mails and failures of scientists to properly document water and 
filtration?  
        MR. SPROAT.  My understanding, as I have done a little 
research into this, very little in the short time I have been here.  I 
think the Department has done all of the right things in order to 
address this.  They have done investigations, talking to the people 
involved to understand exactly what was going on back in the--this 
timeframe was back in the late 1990s, I believe.  So, I mean, this 
didn't happen in the last 2 years or so.  This is back in the late 
1990s and specifically had to do with the work that was being done 
on predicting how water from rainfall would infiltrate through the 
mountain to the repository itself.  
        What they did besides understanding what the e-mails meant 
and what the people who wrote them meant is they brought in 
some outside expertise to take a look at the model that those people 
did, that infiltration model, and benchmarked it against other work 
that other people have done that are not related to Yucca Mountain 
and had them take a look at it and say, is that model giving us 
reasonable results?  And the answer was, yes, it is.  It is giving us 
results that are consistent with these other independent models.  
        In addition to that, we have commissioned a separate 
independent group of scientists to put together another independent 
infiltration model to make sure that their model comes up and 
gives us basically the same, consistent answers with the original 
model.  So from somebody who is in the nuclear industry who has 
been very heavily involved with nuclear licensing and 
nuclear quality issues over my career, they have taken the right 
approach, and when all this is done, the issue should be well 
behind us.  
        MR. MURPHY.  Thank you.  
        Mr. Chairman, I know I am out of time.  Can I ask one more 
question?  
        MR. HALL.  Of course.  
        MR. MURPHY.  It has to do with, I guess, a general sense of 
where we stand here with United States standards and storage of 
spent nuclear fuel compared with other countries, but also as it 
relates to existing laws and regulations about transportation and 
trying to anticipate other concerns that may come up in the future.  
But where would you gauge us and our standards when we are 
moving forward compared with other nations who are also dealing 
with this?  
        MR. SPROAT.  My sense is we are close to the front.  I would 
say that the Scandinavian countries have done a lot of work in 
terms of geological repositories, and they have made some 
decisions in terms of their licensing regime and their approach that 
certainly have some appeal to us.  If we are not equal with them, 
we are pretty darn close.  For other countries, we are probably 
ahead.  
        MR. MURPHY.  I thank you very much, and I appreciate your 
candor on this and look forward to seeing some of those quarterly 
reports on the progress.  
        Thank you, Mr. Chairman.  
        MR. HALL.  Thank you.  
        Chair recognizes Mr. Butch Otter, Idaho.  
        MR. OTTER.  Thank you Mr. Chairman.  
        Thank you very much for being here today.  
        MR. SPROAT.  You are welcome.
        MR. OTTER.  I think Mr. Shimkus said it best.  There is 
probably no issue that is of greater importance to us in the United 
States, especially in the area of energy, because the way we treat 
our waste today is going to be dependent on the success of a lot of 
the licensees that are coming along now and asking for new 
licenses for nuclear waste.  
        MR. SPROAT.  Absolutely.  
        MR. OTTER.  I have got a couple questions.  Are you familiar 
with the 1995 Idaho settlement agreement?  
        MR. SPROAT.  I am aware it exists.  I am aware there is a 
timetable to remove high-level waste and spent fuel, both naval 
and other, from INL and get it to the repository by, I think, starting 
in 2025, with a date by which it is supposed to all be removed, and 
that is about as far as my knowledge scope goes. 
        MR. OTTER.  The date is not too long after that, about 7 or 8 
years.  
        Is there anything in the Domenici-Reid proposal that would in 
any way infringe upon or reverse anything in that Idaho--
        MR. SPROAT.  Not that I am aware of.  
        MR. OTTER.  Under their proposal, it is suggested in there that 
there are certain requirements to be considered in an interim site or 
a regional site.  Because of the nature of Idaho's nuclear waste and 
how long it has been there, would Idaho be considered as a 
regional or interim site?  
        MR. SPROAT.  If I understand--I have read the appropriations 
language which contains this, and there were certain aspects of it I 
don't fully understand.  I haven't had the opportunity to talk to 
Senator Domenici about it to get to clarifying it, but if I understand 
it correctly, it certainly tries to encourage the concept of 
regionalization, consolidation on a per-region basis.  And I believe 
it is intended to direct the Department to try and reach agreements 
with certain host States as to whether or not they would be willing 
to host a regionalized consolidation interim storage site.  
        Whether or not Idaho would be an appropriate place for that, I 
just don't know.  And I would hate to speculate on that because I 
just don't know.  All I can say is I can see some challenges in 
trying to make that happen.  
        MR. OTTER.  Can I be fairly comfortable in assuming that if, 
with your knowledge, although it may be not as deep as we would 
hope--I would hope that I had knowledge of it--that the 
Department won't do anything to try to amend that agreement or 
change that agreement?  
        MR. SPROAT.  I certainly have no intent or plans to amend that 
agreement.  I am working very clearly to a schedule that says I 
have commitments not only to the State of Idaho, but to the U.S. 
Navy and a number of other people to get this stuff moving and get 
it in a repository for disposal, and I intend to do that.  
        MR. OTTER.  If the timelines don't work out, and having been 
in business for a long time before I came to this place, this isn't 
what I am used to in business at this place.  If you were up against 
a timeline, let's say the Idaho timeline, on the removal of the 
waste, would an interim site be considered adequate, removal of 
the waste from Idaho to an interim site instead of to Yucca 
Mountain?  
        MR. SPROAT.  I just can't answer that question, sir.  I just don't 
know.  I don't know what the right answer to that is.  I can 
certainly take that question for the record and get back to you, but I 
just can't answer it now.  
        [The information follows:] 

        The Idaho Settlement Agreement of 1995 requires the DOE to 
". . . remove all spent fuel, including naval spent fuel and Three 
Mile Island spent fuel from Idaho by January 1, 2035." (Section 
C.1)  Further "DOE shall treat all high-level waste currently at 
INEL so that it is ready to be moved out of Idaho for disposal by a 
target date of 2035." (Section C-3)
        If Yucca Mountain were not available to meet the requirements 
to complete the removal of spent nuclear fuel from Idaho by 2035, 
to fulfill its commitment the Department could evaluate the 
potential to move the material to another site outside the State of 
Idaho.  

        MR. OTTER.  I see.  
        In an answer to one of the previous questions, I think it was 
Mr. Rush or Mr. Wynn, you said that there were 70 million tons--
        MR. SPROAT.  Seventy thousand metric ton limit.  
        MR. OTTER.  Seventy thousand metric tons.  Pardon me.
        MR. SPROAT.  Seventy thousand metric ton limit on the 
mountain.  
        MR. OTTER.  I have got 70,000 metric tons and 126 sites.  How 
many of those would be candidates for reprocessing?  
        MR. SPROAT.  I prefer to get back to you on that.  I don't know.  
[The information follows:] 

        Potentially almost all commercial spent fuel could be 
reprocessed if recycling technologies and processes were 
successfully developed and commercially deployed in the U.S., 
however, economics will dictate the desirability of recycling older 
fuel which is currently in interim storage.

        MR. OTTER.  Where I am headed with that is if we do get into 
reprocessing, I think Mr. Wynn's question was an appropriate one, 
because if we do get into reprocessing, and we are not varying on 
97 percent potential fuel, it could be that Yucca Mountain would 
be large enough.  Now, your answer to him was a rejection of that 
notion because you said no, because we still have military waste, 
we still have naval waste, we still have these other wastes.  
        And so it would be, I think, an appropriate question to ask is, 
well, then, how much of that 70,000 metric tons, how much space 
would that take up?  If you are asking to enlarge it, how much 
more space is going to be available?  And then how much is not 
going to be needed out of these 126 sites if we do successfully 
establish reprocessing?  
        MR. SPROAT.  Sure.  Well, where we stand right now, I am 
obligated under the Nuclear Waste Policy Act to come back to the 
Congress in the next 3 years, I believe, 3, 3-1/2 years, with a 
recommendation and an analysis of the need for a second 
repository and an analysis of do we need one.  And I would say 
that if I don't get that 70,000 metric ton limit removed through the 
legislation that we have sent up to the Hill, I probably can't--given 
the uncertainties of the timeframes associated with closing the fuel 
cycle and how long it is going to take to start recycling that fuel, I 
would probably still have to come back and say I am going to need 
a second repository.  
        MR. OTTER.  Plus the fact that I am told there is something like 
30 license requests in right now for new plants, and so plus if we 
are not going to reprocess, someday we are going to be facing that 
waste.  
        MR. SPROAT.  Absolutely.  Absolutely.  
        MR. OTTER.  Mr. Chairman, I would ask unanimous consent 
that members of the committee who are here and who are not here 
be allowed to, by way of perhaps a letter to the Director, make 
additional inquiries, some of them on secondary questions that I 
would have, and then later, on receiving those replies, make them 
part of the record, this official record.  
        MR. HALL.  Without objection, I think we made that statement 
initially at the beginning and have asked for a timely return of 
those questions.  
        MR. SPROAT.  Certainly.  
        MR. OTTER.  Thank you.  
        MR. HALL.  Mr. Otter, do you yield back?  
        The Chair recognizes the gentleman from Georgia, Dr. Roland.  
        MR. NORWOOD.  Gee, I really appreciate that.  
        MR. HALL.  Dr. Norwood from Georgia.  
        MR. NORWOOD.  Dr. Roland would love to be here questioning 
this, I tell you.  
        Mr. Sproat, welcome.  
        MR. SPROAT.  Thank you.  
        MR. NORWOOD.  I am curious how you felt when you were told 
you were going to come testify before this committee since you 
had been on the job for 4 weeks.  What were your feelings like 
about that?  
        MR. SPROAT.  Actually, believe it or not, I welcome the 
opportunity, because I took this job because I have a very strong 
opinion about its need for the country, and I am committed to 
making it better.  And any opportunity I get to get in front of a 
group like this and talk about it and talk about what I intend to do, 
I enjoy that opportunity.  
        MR. NORWOOD.  Well, I associate myself a lot with John 
Shimkus on this.  There is not much more important than us 
getting this repository open.  I can tell you what my feelings were.  
I wasn't sure if I was in a nightmare or this was something special 
we were having.  I can't remember how many of these hearings 
that we have had in the last 12 years where the Director sat there 
and assured us of this and that and this, and nothing has happened.  
        MR. SPROAT.  Yep.  
        MR. NORWOOD.  I find it unbelievable that since 1982, when 
we first decided to have a repository, and now 23 years later and 
saying, oh, well, just 11 more years.  You come from the private 
sector.  How are your feelings about that?  
        MR. SPROAT.  Well, clearly, number one, as I said when I 
opened up, I share the committee's frustration with this.  I 
absolutely do.  That is one of the reasons why I decided to put 
myself through this process to come here and try and make this 
happen.  
        I would say that--obviously, I can't speak intelligently all the 
time about why we got ourselves to where we are.  Clearly, 
number one, I think it was a lot harder than people thought it was 
going to be is one part.  And secondly, I think, quite frankly, this 
project, to move it forward, to get an NRC license and to build this, 
requires skill sets of the person running the--of the program that 
may be a little different than the person--than the people who have 
been here in the past.  
        MR. NORWOOD.  Took us 23 years to figure that out, huh?  It 
doesn't say a lot for DOE, if you want to know the truth.  
        MR. SPROAT.  I can't answer that.  
        MR. NORWOOD.  Last time I was at Yucca Mountain was 1995, 
1996, and they had dug some pretty good holes in that mountain 
then.  All I can remember out of that whole trip was everybody 
was running around painting signs saying don't run over the 
turtles, and that is the way we were spending most of our dollars 
and research about the turtles.  The good thing about this to me is I 
think you might actually get something done.  
        MR. SPROAT.  I plan to.  
        MR. NORWOOD.  And I am all for you, and as Mr. Shimkus 
said, we want help.  This is not just embarrassing, which it is.  It is 
costing this country a great deal of money, and it is interfering, in 
my mind, greatly with our energy policies.  In my part of the 
world, Georgia and South Carolina, where Savannah River Site is, 
I mean, we are trying to get in position to build three more reactors 
down there now, one at SRS and two with Southern Company.  
But we need the Department of Energy to actually do something, 
and if it takes 30 years to open up that mountain, I have got great 
concerns even with a man like yourself who is used to getting stuff 
done.  You hadn't been over there long enough to see all the traps.  
I mean, you have got bureaucrats around every corner digging a 
hole, hoping you fall in it so we can't get this done.  
        MR. SPROAT.  Believe me, sir, I am going in to this with my 
eyes wide open.  
        MR. NORWOOD.  Well, you have friends on this committee who 
are not scared and who would be willing to help you, but we want 
to see you actually make this happen, and my question is, my gosh, 
is it going to take until, what did you say, 2017?  
        MR. SPROAT.  Yes, sir.  
        MR. NORWOOD.  Is it really going to take that long after all this 
time?  
        MR. SPROAT.  Well, let me say this about that.  I do believe it is 
going to take--to get the quality application in to meet my 
standards to the NRC, I believe it is going to take me pretty close 
to that 2008 timeframe.  After that, if I haven't had enough time 
yet, but in terms of the construction process and can we shrink 
once we get that license to build, can we shrink the construction 
timeframe, I bet we can, but I just haven't had enough time to 
really go through the designs and challenge the planners yet around 
that.  
        MR. NORWOOD.  I have given up on this every other year, 
thinking, well, it will never happen, don't waste your time on this.  
What have they been doing for construction in 23 years?  They 
were digging as hard as they could dig in 1995.  What are we 
trying to build yet?  
        MR. SPROAT.  They haven't been building anything.  It has 
been mainly a program to gather data about the geology of the 
mountain and to put together a license application that they think 
the NRC--would meet the NRC's needs of 2004.  
        MR. NORWOOD.  Mr. Sproat, now, we won't tell anybody.  You 
really think it takes 23 years to gather data on the geology?  
        MR. SPROAT.  No, sir.  
        MR. NORWOOD.  I don't either.  I think somebody is playing 
games.  I hope you can get around them best you can.  
        One last question, Mr. Chairman.  I hope we have made it 
clear, we are for you, and we are with you.  
        MR. SPROAT.  Yes, sir.  
        MR. NORWOOD.  As the Director of Radioactive Waste, does 
MOX fuel come under your bailiwick?  
        MR. SPROAT.  No, it does not.  
        MR. NORWOOD.  If you want that mountain to be filled up 
overnight, all we have got to do is listen to the Chairman of the 
Appropriations Subcommittee for Energy and Water that wants to 
liquify all of our nuclear waste in this country, and we will fill your 
mountain up so fast that you won't know what to do.  You know 
what liquification is of nuclear fuels--nuclear waste, I mean?  
        MR. SPROAT.  Quite frankly, I have not heard of that concept.  
        MR. NORWOOD.  Well, I want you to be interested in it a little 
bit because there are alternatives.  We have tried very hard to put a 
MOX fuel plan up to reprocess this so that 90 percent of this waste 
we can burn up in reactors and only send you 10 percent, and there 
are folks trying to stop that and want to turn it into glass logs.  
They are as big as that table over there, and it will fill your 
mountain up real quick.  So I hope you will look at that enough to 
know it is going to affect where you are going to be down the road 
a little bit.  
        MR. SPROAT.  Yes, sir.  
        MR. NORWOOD.  Hopefully.  And believe me, we on this side 
don't depend on the Senate very often, but hopefully the Senate is 
going to put the money in this MOX fuel thing so we can actually 
send you 10 percent of all that waste and not 100 percent of it.  
        Good luck.  I admire you taking this on.  I hope you can do it.
        MR. SPROAT.  Thank you.  
        MR. NORWOOD.  Thank you, Mr. Chairman.  
        MR. HALL.  Dr. Norwood.
        MR. NORWOOD.  Yes, sir. 
        MR. HALL.  We thank you.  
And Dr. Roland is another dentist, and we put him in charge of 
the turtles.  
        MR. NORWOOD.  I will tell Dr. Roland you asked about him.  
        MR. HALL.  I have one other question, just one last question I 
want to get in the record.  What else can be done to accelerate the 
schedule and begin receiving spent fuel at Yucca Mountain?
        MR. SPROAT.  I think, Mr. Chairman, that my best answer to 
that right now is I need to complete the assessment of the program 
that I am currently doing and understand and really push and 
challenge the organization to compress the schedules that they 
have given me as I have walked in the door, and it is going to take 
me a little while to do that.  I need to make sure they have got a 
good, credible design first and then really push them on 
compressing that, both the design schedules as well as the 
construction schedules.  
        And then, quite frankly, the other thing is the key critical path 
goes through the NRC licensing process, and working with the 
NRC management so that we end up with a 3-year licensing 
process and not a 10-year licensing process is really important.  
        MR. HALL.  My last question:  Can you think of anything we 
can do legislatively up here that will support a guy with a program 
that you have laid out, that I respect and Dr. Norwood respects?  
And you don't have an unfriendly committee in front of you here.  
We are for you.  
        MR. SPROAT.  I would say--I would just requestfully--I am 
sorry, respectfully request that the committee give serious 
consideration to the legislative package we have already sent up, 
and as part of my assessment with the program here over the next 3 
to 6 months, if I need something else, you will hear from me.  
        MR. HALL.  Mr. Boucher, other questions?  
        MR. BOUCHER.  No.  
        MR. HALL.  We thank you for your time, preparation, your 
background and your service to this country.  
        We are adjourned.  
        [Whereupon, at 3:41 p.m., the committee was adjourned.]


RESPONSE FOR THE RECORD OF THE HON. EDWARD F. SPROAT III, 
DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
MANAGEMENT, U.S. DEPARTMENT OF ENERGY

QUESTIONS FROM REPRESENTATIVE HALL
Yucca Mountain

Q1. Previous DOE testimony before this Committee indicated 
that liability costs may reach approximately $500 million 
per year plus another $500 million per year for continued 
storage of defense waste.  What can DOE do to mitigate 
these costs to the American taxpayer?

A1. The surest way for the Department to mitigate liability is to 
open the Yucca Mountain repository.  The Department 
recently announced a schedule for commencing operation 
of the Yucca Mountain repository by 2017.  This schedule 
is premised on a number of factors including adequate 
funding, issuance of a Nuclear Regulatory Commission 
(NRC) construction authorization consistent with the three 
year period specified in the Nuclear Waste Policy Act, the 
timely issuance of a license amendment to receive and 
possess, the timely issuance of all other necessary 
authorizations and permits, the absence of litigation related 
delays and the enactment of pending legislation proposed 
by the Administration.


Q2. I understand that the DOE is currently paying damages to 3 
contract holders under negotiated settlements or court 
awards.  When do you expect to begin paying damages to 
the other contract holders?  

A2. The Department of Justice has entered into settlement 
agreements with three contract holders and pays settlement 
amounts from the Judgment Fund pursuant to those 
agreements.  Money damages awarded by a court also 
would be paid from the Judgment Fund.  The government 
cannot predict whether or when additional settlement 
agreements with contract holders will be completed or 
when payments pursuant to those agreements would begin.  
Similarly, the Department cannot predict if or when courts 
will enter damage awards in those pending cases that are 
tried to judgment. 


QUESTIONS FROM CHAIRMAN BARTON

Yucca Mountain

Q1. Can DOE implement interim storage faster that [sic] Yucca 
Mountain can be finished?

A1. The Department recently announced a schedule for 
commencing operations of the Yucca Mountain repository 
by 2017.  Assuming the elimination of the constraints 
imposed by the Nuclear Waste Policy Act on interim 
storage, the Department does not believe that off-site 
interim storage could be deployed appreciably sooner than 
2017.

Q2. What are the biggest barriers to docketing the Yucca 
Mountain license?  What will you do to address them?  Can 
anything be done legislatively to resolve them? 

A2. The Department recently announced a schedule for 
docketing the Yucca Mountain license application by the 
end of 2008.  In order to meet this schedule, the 
Department must complete work on (1) an updated Total 
System Performance Analysis (TSPA) that takes into 
account a number of developments including an 
Environmental Protection Agency (EPA) standards for the 
post-10,000 year period and replacement of the U.S. 
Geological Survey (USGS) infiltration model, and (2) 
completion of surface facility designs to incorporate the 
clean-canistered approach.  This schedule is not dependent 
on the passage of new legislation, but is dependent on 
adequate funding and the absence of litigation related 
delay.  In addition, timely finalization of the rulemaking on 
the EPA standards is essential since completion of the 
license application is dependent on knowing how that 
rulemaking will address the uncertainties that become 
increasingly large in post-10,000 year period. 


Q3. Licensing Yucca Mountain will be a significant first of a 
kind undertaking.   Are there ways to improve the NRC 
licensing process that could improve the chances of 
success, consistent with protecting public health and the 
environment?

A3. The Administration has included provisions in its 
legislation to streamline the Nuclear Regulatory 
Commission (NRC) licensing process and improve the 
Projects's chances of success, consistent with protecting 
public health and the environment.  We are evaluating 
whether or not there are other potential improvements in 
the current NRC processes which could further promote 
this effort.  The Department strongly encourages Congress 
to pass the Administration's Yucca Mountain bill.


Q4. What else can be done to accelerate the schedule and begin 
receiving spent fuel at Yucca Mountain sooner?  Could 
anything be done legislatively? 

A4. Maintaining or accelerating the announced schedule 
depends to a large extent on adequate funding for 
construction of the repository, development and 
procurement of canister, and construction of the Nevada 
rail line.  We are evaluating whether there are legislative 
actions in addition to those in the Administration's Yucca 
Mountain bill that would assist in accelerating the opening 
of the Yucca Mountain repository.  


Q5. The Yucca Mountain EIS says that the repository should be 
kept open for monitoring and potential retrieval of the 
waste for a period of 50-300 years.  Will the design allow 
for retrieval of spent fuel for reprocessing if the technology 
is successfully developed?  How might this period be 
utilized to improve the effectiveness of the repository over 
time?  

A5. The Yucca Mountain design will allow for the retrieval of 
spent nuclear fuel while the repository is open.  The NRC 
requirement to maintain a minimum monitoring period of 
50 years is to ensure that the system has performed as 
expected and that waste could be retrieved, if required.  The 
Department is currently designing repository subsurface 
systems to last up to 300 years to allow future generations 
more flexibility in taking steps to improve the efficiency of 
the repository and in defining when the repository should 
be sealed and ultimately closed.  While the design would 
permit the retrieval of spent fuel for recycling, the 
Department has no current plans to emplace spent fuel in 
the repository with the intent to retrieve it for recycling.  
Recycling technology most likely will be deployed to deal 
with spent fuel on an ongoing basis rather than with legacy 
spent fuel generated prior to the deployment of recycling 
technology.


Q6. Being regulated by the NRC requires a workforce with a 
unique skill set, including strict adherence to procedures 
and quality assurance.  Since DOE has never been 
regulated by the NRC, how do you plan to adapt the 
workforce culture to enable it to succeed under NRC 
scrutiny both as the license applicant for Yucca Mountain 
and ultimately, as the repository operator?  Is there any 
additional authority you need to meet this workforce 
challenge?

A6. The Department currently holds two NRC licenses for 
spent fuel storage facilities at the Idaho National 
Laboratory and can apply that knowledge to Yucca 
Mountain.  The Yucca Mountain Program is in the process 
of developing a nuclear culture and following prescribed 
NRC procedures, requirements and regulations which are 
necessary to become an NRC licensee.  The NRC will only 
issue a license to construct a repository or operate facilities 
if the Department demonstrates that NRC requirements are 
being met.  The Department will be conducting a skills 
management evaluation to identify future requirements for 
Federal and contractor staff skills and competencies, and is 
confident that its workforce will meet all NRC 
requirements as a licensee.  The Department is not seeking 
any additional authority to meet these workforce 
requirements at this time.  


Q7. Currently there are plans to build 4 new reactors in Texas 
and additional plants may be built in the future.  There are 
two significant conditions that license applicants must meet 
related to spent fuel.  First, license applicants must meet the 
requirements of the waste confidence rule.  That will be 
possible if DOE maintains the 2017 schedule and Congress 
raises the capacity limit on Yucca Mountain to allow room 
for spent fuel from new plants.  Secondly, under the 
Nuclear Waste Policy [sic] license applicants must sign 
standard contracts with DOE for spent fuel disposal.  
Considering that DOE is in the midst of litigation over the 
vast majority of the existing contracts, does DOE intend to 
sign new contracts with license applicants?

A7. Yes.  The Department intends to enter into contractual 
arrangements with license applicants that will meet the 
requirements of the Nuclear Waste Policy Act and support 
the issuance of licenses to construct and operate new 
reactors.
 

Q7a. Will DOE need any additional legislative authority?

A7a. No.  The Nuclear Waste Policy Act already authorizes the 
Secretary to enter into contracts for the disposal of spent 
nuclear fuel and high-level radioactive waste from civilian 
nuclear power reactors.  The Department does not require 
and is not seeking any additional legislative authority.


Q7b. When will DOE begin negotiations with companies 
interested in building new plants?

A7b. The Department expects to announce its plans in the near 
future.  The Department is committed to undertaking a 
course of action that does not delay companies from 
applying for and receiving licenses to construct and operate 
new reactors.


Q7c. In what ways do you think new contracts might differ from 
the current generation of contracts?

A7c. The Department has started, but not completed its 
evaluation of the current Standard Contracts between 
utilities and the Government to review which provisions 
may need modification.


Q8. Please provide the Committee with a quarterly report on the 
Departments [sic] progress toward meeting the various 
program milestones that are necessary to submit the license 
application by June 30, 2008.

A8. The Department will provide the Committee a quarterly 
report on the Department's progress toward meeting 
Program milestones to submit the license application by 
June 30, 2008.  Attached for the record is a list of the 
anticipated milestones to license application submittal.  


Attachment

Yucca Mountain Repository Schedule

Milestone   					 	Date
Design for License Application Complete			30 November 2007
Licensing Support Network Certification			21 December 2007	
Supplemental Environmental Impact Statement (EIS) Issued 30 May 2008	
Final License Application Verifications Complete	30 May 2008
Final Rail Alignment EIS Issued				30 June 2008
License Application Submittal				30 June 2008
License Application Docketed by NRC			30 September 2008

        The schedule above is based on factors within the control of 
DOE, appropriations consistent with optimum Project 
execution, issuance of an NRC Construction Authorization 
consistent with the three year period specified in the Nuclear 
Waste Policy Act, and the timely issuance by the NRC of a 
Receive and Possess license.  This schedule also is dependent 
on the timely issuance of all necessary other authorizations and 
permits, the absence of litigation related delays and the 
enactment of pending legislation proposed by the 
Administration.


Q9. Can Yucca Mountain meet the radiation standard that is 
currently under revision and likely to be finalized by EPA 
late this year?

A9. The Department believes it can meet the EPA radiation 
protection standards in the draft rule issued last year.  Any 
revisions to the draft rule would need to be evaluated.  
While the Department is confident the repository will 
provide adequate protection up to and beyond the point of 
peak dose, increasing the compliance period by a hundred 
fold greatly increases the uncertainties associated with 
modeling performance and most likely will prolong the 
licensing process.


Q10. What is being done with regard to the USGS emails and the 
failure of their scientists to properly document their water 
infiltration studies?  How long will it take to resolve that 
issue?

A10. The infiltration estimates produced by USGS are 
corroborated by independent data from around the United 
States.  Still, we recognize that it is essential that the 
technical basis for the Yucca Mountain repository meet 
DOE's quality assurance requirements and be without the 
appearance of question or qualification; therefore, the 
modeling work performed by the USGS employees who 
exchanged the emails will be replaced and supplemented, 
as necessary, and supporting documentation will be 
reviewed and verified.  We have tasked Sandia National 
Laboratories to review the existing infiltration model and 
prepare a new model.  This new model and the results will 
be used as part of the technical basis for the license 
application.

After Sandia completes this task, the models and results 
will be independently checked by experts outside the 
Department to ensure the technical soundness and quality 
assurance traceability, which are required for the license 
application.


Q11. The "Clean Canister Approach," using one canister design 
for transportation and disposal, sounds a lot like the old 
Multi-Purpose Canister proposal that failed.  What makes 
the clean canister approach any more likely to succeed?

A11. The previous multi-purpose canister (MPC) did not fail, but 
was cancelled for budgetary and political reasons as noted 
in an extensive report in 1997 by the Electrical Power 
Research Institute.  Based on the scientific and technical 
information now available, the Department believes it can 
successfully develop and incorporate a canister approach 
that can support transport, aging, and disposal requirements 
for the overall waste management system. 


Q11a. How will DOE handle spent fuel that has already been 
packaged in transportable canisters, especially at 
decommissioned plants where handling facilities no longer 
exist?

A11a. The Department expects most such spent fuel to be 
repackaged in the new canisters at reactor sites.  There will 
be some capability, however, to repackage such spent fuel 
at the Yucca Mountain repository.  While the Department 
will work with utilities to facilitate the transfer of spent 
fuel, the Department does not believe it is obligated under 
the Standard Contract to accept spent fuel packaged in 
transportable canisters.  The issue of the Department's 
acceptance of those systems is currently a matter in 
litigation.


Q12. What is the status of the Defense contribution for the cost 
of disposing of defense waste and spent fuel in the 
repository?  Is the government on schedule to meet its 
financial obligation to the project?

A12. The Defense contribution for the disposal of the defense 
waste is approximately $15 billion of the total life cycle 
cost of the Program.  The Government contribution is on 
schedule to meet its financial obligation to the Project.


QUESTIONS REPRESENTATIVE ROGERS

Yucca Mountain

Q1. Last November, the Department announced an initiative to 
develop a multi-purpose canister that could be loaded at 
reactor sites, transported, and disposed at Yucca Mountain 
thus eliminating the need for repackaging and multiple 
handling of used fuel. These canisters were called TADs - 
for transportation, aging, and disposal. Does the 
Department remain committed to the TAD initiative? How 
is this initiative progressing? How does the development of 
this canister support the licensing of Yucca Mountain?

A1. The Department has adopted a canister-based approach for 
the repository and is currently re-designing the surface 
facilities to reflect this new initiative.  Industry has 
responded positively to this new approach.  The 
Department intends to contract with private industry for the 
development of the TAD systems.  We plan to release a 
performance specification for the TAD system in 
November of this year and anticipate that conceptual 
designs of TAD canisters will be available early next year.  
The Department recently released its schedule to submit the 
license application to the Nuclear Regulatory Commission 
(NRC) in June of 2008.  This schedule is premised on the 
ability to use more efficient and simpler surface facilities 
because of the canister-based approach.  


Q2. I understand the Department will be making a Critical 
Design Decision soon regarding the redesign of the 
repository surface facility (consistent with the simplified 
approach [sic] in provided by the TAD initiative), what is 
the status of this decision?

A2. The Department's internal Critical Decision to adopt the 
canister-based approach was made in July of this year.  


Q3. The Yucca Mountain Environmental Impact Statement says 
that Yucca Mountain should be kept open for monitoring 
and potential retrieval of the waste for a period of 50-300 
years.  Do you see this period providing an opportunity to 
improve the effectiveness of the repository over time?

A3. Yes.  The NRC requirement to maintain a minimum 
monitoring period of 50 years is to ensure that the system 
has performed as expected.  The Department, however, is 
currently designing the underground tunnels to last up to 
300 years, which will allow future generations more 
flexibility in taking steps to improve the efficiency of the 
repository and in defining when the repository should be 
sealed and closed.  The ability to keep the repository open 
for 300 years will permit the emergence of new 
technologies that might improve the long-term performance 
of the repository.


Q4. Transportation of spent fuel is an area that has obvious 
challenges. In Michigan, one of the concerns has been 
barging of spent fuel on the Great Lakes. While the 
Department has stated a preference for rail in shipping 
spent fuel to Yucca Mountain, the Environmental Impact 
Statement does contemplate barging spent fuel on the Great 
Lakes. What are the Department's plans for moving 
forward and addressing local or regional concerns so that 
they can be put aside as obstacles to moving the Yucca 
Mountain project forward?

A4. Any decision to use barge transport would be made only 
after thorough consultations with stakeholders, including 
State, Tribal, local and utility representatives.  DOE will 
work with the appropriate State Regional Groups as part of 
its transportation planning and mode selection process.


QUESTIONS FROM REPRESENTATIVE OTTER


Q1. I understand that the first facility that will be in operation at 
Yucca Mountain is the initial fuel handling facility.  Will 
both Navy and DOE Spent Nuclear Fuel from Idaho be 
received at this facility as soon as it opens?

A1. Currently we are evaluating surface facility designs and no 
final decisions have been made with regard to those facilities.  
As a general matter, our planning assumption is that, subject 
to construction sequencing and assuming the capability to 
transport spent nuclear fuel to the repository site, that 
commercial, Naval and DOE spent nuclear fuel will be able 
to begin to be accepted at the site at the time the repository 
opens, or shortly thereafter.  The Department's recently 
announced Best-Achievable Repository Construction 
Schedule estimates that the Department would begin receipt 
in March 2017.


Q2. Are there any Research and development needs that must be 
addressed before deploying the Transport, Aging, and 
Disposal (TAD) canister, if so what is the schedule for 
addressing these needs?

A2. No, the Department does not believe that any research and 
development needs must be addressed before deploying the 
Transport, Aging, and Disposal (TAD) canister.

</pre></body></html>
